<html>
<title> - REVELATIONS BY FORMER WHITE HOUSE PRESS SECRETARY SCOTT McCLELLAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   REVELATIONS BY FORMER WHITE HOUSE 
                    PRESS SECRETARY SCOTT McCLELLAN

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2008

                               __________

                           Serial No. 110-185

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                  U.S. GOVERNMENT PRINTING OFFICE
42-974                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 20, 2008

                                                                   Page

                           OPENING STATEMENT

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     3

                                WITNESS

Scott McClellan, former White House Press Secretary
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Exhibits submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    64
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    71
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................    75
Post-Hearing Questions of the Honorable Lamar Smith, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Committee on the Judiciary, to Scott McClellan, former 
  White House Press Secretary....................................    78
Response to Post-Hearing Questions from Scott McClellan, former 
  White House Press Secretary....................................    85


   REVELATIONS BY FORMER WHITE HOUSE PRESS SECRETARY SCOTT McCLELLAN

                              ----------                              


                         FRIDAY, JUNE 30, 2008

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 9:34 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Nadler, Scott, Jackson 
Lee, Delahunt, Wexler, Sanchez, Cohen, Johnson, Sutton, 
Sherman, Baldwin, Davis, Wasserman Schultz, Ellison, Smith, 
Coble, Lungren, Keller, Issa, Feeney, and Franks.
    Staff Present: Robert Reed, Majority Counsel; Brandon 
Johns, Majority Clerk; and Crystal Jezierski, Minority Counsel.
    Mr. Conyers. Good morning. The Committee will come to 
order.
    We welcome everyone to the hearing, especially former White 
House Press Secretary Scott McClellan and his counsel, Mike and 
Jane Tigar.
    Many respected commentators have noted that this is the 
most important matter Congress could examine in its oversight 
of this Administration. As John Nichols wrote in The Nation 
magazine, what Scott McClellan wrote in his new book about the 
Administration's propaganda campaign to promote and defend the 
occupation of Iraq was not a revelation. It was a confirmation 
that the White House has played fast and loose with the truth 
in a time of war.
    Depending upon how one reads the Constitution, that may or 
may not be an impeachable offense. But Mr. McClellan's 
assertion that top Presidential aides, perhaps with the 
cooperation of the Vice President, conspired to obstruct 
justice by lying about their role in the plot to destroy the 
reputation of former Ambassador Joe Wilson, a critic of the 
rush to war, and his wife, former CIA agent Valerie Plame; and 
this demands a response from Congress. When White House 
insiders leak classified information, manipulate media 
coverage, and otherwise employ their immense power to punish 
dissenters, Congress does not have any other option, has a 
constitutional duty to check and balance an errant executive 
branch.
    That the former White House spokesman, with his claim that 
the President said he authorized the selective release of 
classified information to reporters covering the Wilson story, 
links the wrongdoing directly to Bush, ups the ante even 
further. That is the quote.
    I would like to make these three points. First, Mr. 
McClellan's revelations highlight acts that may constitute 
illegal obstruction of justice beyond that for which Scooter 
Libby was convicted. In his book, Mr. McClellan explains that 
he stated to Mr. Libby that he did not intend to vouch for and 
exonerate him to the press in the way that he had done 
concerning Karl Rove since the leak investigation had actually 
begun.
    Shortly after that conversation, however, White House Chief 
of Staff Andrew Card told Mr. McClellan that the President and 
Vice President spoke this morning. They want you to give the 
press the same assurances for Scooter that you gave for Karl. 
It seems clear that Mr. Libby, Mr. Card, the President and Vice 
President were involved in directing Mr. McClellan to falsely 
vouch for Mr. Libby, despite Mr. McClellan's earlier 
reservations.
    In fact, handwritten notes from Vice President Cheney 
himself confirm this. These notes now on the screen were an 
exhibit in the Libby trial, and appear to be notes from Mr. 
Cheney's conversation with the President. The notes say, ``Has 
to happen today. Call out to key press saying same thing about 
Scooter as Karl. Not going to protect one staffer and sacrifice 
the guy.''
    And then something intelligible--something illegible, but 
looks like, ``This press,'' meaning this President, ``that was 
asked to stick his neck out in the meat grinder because of the 
incompetence of others,'' end of quotation.
    That is disturbing enough, but we also have a letter from 
two former Federal prosecutors, as we can see on the screen. 
The first paragraph, that is all I will read, of that letter 
states that ``A substantial predicate exists for investigation 
of whether this conduct may constitute the criminal offense of 
obstruction of justice.''
    To those who would dismiss the significance of today's 
hearing, I would say that concerns about possible obstruction 
of justice are not trivial and clearly warrant this Committee's 
attention. In many respects, today's hearing just offers us a 
partial glimpse into apparent deceptions at the White House, 
including most notably with regard to the outing of Valerie 
Plame.
    To truly get to the bottom of this matter we will need far 
more cooperation by the Administration and from the Justice 
Department. It is vital that we obtain the interview reports of 
President Bush and Vice President Cheney and unredacted 
interviews, interview reports of other key White House 
officials, to determine their involvement not only in the leak, 
but also the cover-up.
    Yet the Justice Department has been less cooperative with 
this Committee, refused even to give us access to redacted 
materials that the Oversight Committee of the Congress has 
already seen. Such conduct is unacceptable, which is why this 
week we sent a letter to Attorney General Mukasey, reiterating 
our requests and explaining that we may have to resort to 
compulsory process if they continue to deny us the documents.
    We look forward to hearing from Mr. McClellan on the role 
of the Vice President and the President.
    Now the issue of a possible pardon of Mr. Libby still 
remains outstanding, in addition to the President's earlier 
commutation of Mr. Libby's prison sentence. Following Mr. 
Libby's sentence commutation, we held a hearing on the issue; 
and we hope to explore with Mr. McClellan his thoughts on a 
possible Presidential pardon for Mr. Libby in the context of 
the revelations in his book.
    And I want to close by acknowledging Mr. McClellan's 
suggestion in his book and in today's opening statement that 
all of us work on what he mentioned in his book, restoring 
civility and bipartisanship and candor to our national 
political discourse, and putting our Nation's interests above 
our partisan goals.
    I want to point out this Committee has been, I think, 
superb in working in that spirit. We have very important 
issues, wide differences of view, but we have always been able 
to conduct our discussions in a very highly appropriate way. 
And these goals are shared by Members of this Committee on both 
sides of the aisle. As a result, when credible and 
troublingallegations are made by an important former 
Administration official, although partisan tensions may arise, 
we know that we can deal with the facts and not personal or 
partisan attacks.
    I thank you for your appearance. And I would like to 
recognize now the Ranking Member of the Judiciary Committee, 
the gentleman from Texas, Mr. Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman. Welcome, everyone, to 
the Judiciary Committee's first ``Book of the Month club'' 
meeting. Today it is Scott McClellan's ``What Happened: Inside 
the Bush White House and Washington's Culture of Deception.'' I 
propose that next time we consider Ann Coulter's book, ``How to 
Talk to a Liberal If You Must.''
    It is hard to take Mr. McClellan or this hearing too 
seriously. Despite what Mr. McClellan says regarding Iraq, 
three different studies, the Senate Intelligence Committee 
report of 2004, the Robb-Silverman report of 2005, and 
Britain's Butler report, conclude that intelligence reports 
were not altered in the lead-up to the Iraq war. And despite 
this book's innuendo, a 3-year independent criminal 
investigation found that no White House officials leaked 
Valerie Plame's name to the media in violation of the law.
    Also it should be of no surprise that there was spin in the 
White House press office. What White House has not had a 
communications operation that advocates for its policies? Any 
recent Administration that did not try to promote its 
priorities should be cited for dereliction of duty.
    Many have asked why Mr. McClellan did not object to what he 
saw while he was at the White House. The reason is clear. There 
was nothing to object to.
    Last Monday, at the Dallas-Fort Worth airport, I had a 
conversation with an airline employee who asked me what I was 
working on. I mentioned this hearing, and she, a self-
proclaimed Democrat, replied, Why are you having him? All he 
did was write a book. It appears many Americans might have 
trouble taking this hearing seriously.
    Motives are important. And we really don't know Mr. 
McClellan's motives. He says he had a revelation which 
contradicts everything he said and did for 2\1/2\ years before. 
There are some questions we may never get the answer to.
    What really explains going from a loyal and trusted staff 
member to a person who makes biting accusations? Since Mr. 
McClellan has included no footnotes in his book, and few direct 
quotes or written memos are cited, is the book just a typical 
opinion piece without evidence to support its assertions?
    Mr. McClellan was asked to leave his job. Did this color 
his views? Did he just want to strike back at those who showed 
him to the door?
    What role did money play? So far he has not revealed what 
he was paid for the book or what he stands to gain by promoting 
it. Clearly, Peter Osnos, the editor-at-large for Mr. 
McClellan's publisher, Public Affairs, would have known that an 
inflammatory book would sell more copies and make more money 
for all concerned.
    How much influence did a biased editor have on the finished 
product? What edits were made to the original manuscript to 
make it more critical of the Administration? We do know that 
Mr. Osnos and Public Affairs have published six books by George 
Soros. Mr. Soros was the largest donor to Democratic 527 groups 
during the 2004 Presidential election, giving over $23 million. 
And we know that Mr. Osnos himself has been highly and publicly 
critical of the Bush administration.
    Also, Mr. McClellan's project editor for the book, Karl 
Weber, has written venomous statements about the President, for 
example, calling him a, quote, ``clearly horrible person.''
    So who is the real Scott McClellan? The one who actually 
wrote in his book that the Administration did not employ 
deception and said, quote, ``Some critics have suggested that 
sinister plans were discussed at the White House Iraq Group 
meetings to deliberately mislead the public? Not so,'' end 
quote. Or the one who elsewhere in the same book leveled self-
serving accusations?
    While we may never know the answers, Scott McClellan alone 
will have to wrestle with whether it was worth selling out the 
President and his friends for a few pieces of silver. He will 
have to confront whether he was manipulated by extremely biased 
editors with a partisan agenda. And finally, sooner or later he 
will have to answer to his own conscience.
    Thank you, Mr. Chairman, and I will yield back.
    Mr. Conyers. Thank you. Before I----
    Mr. Tigar. Mr. Chairman? I know Mr. McClellan has a 
statement, but as his counsel, I would like to object. The 
statement we just heard could have been the basis----
    Mr. Issa. Mr. Chairman, the gentleman is out of order. Mr. 
Chairman.
    Mr. Conyers. I am afraid you are out of order. You will 
have an opportunity to object in just a moment.
    Mr. Tigar. Mr. Chairman----
    Mr. Issa. Mr. Chairman, point of order.
    Mr. Conyers. Counsel cannot object to the Committee 
proceedings.
    Mr. Issa. Mr. Chairman?
    Mr. Conyers. Let me do this, please.
    I would like to introduce into the record the following 
documents: the statement from former Federal Prosecutor Barry 
Coburn and Professor Adam Kurland of Howard Law School; second, 
a letter from our colleague, Neil Abercrombie, attaching a 
letter he wrote to the United States Attorney Patrick 
Fitzgerald; and an exhibit from Mr. Libby's trial that I 
referenced in my opening statement.
    Mr. Scott McClellan served as the White House Press 
Secretary from 2003 to 2006. Prior to that, he was Principal 
Deputy White House Press Secretary. And before that, as 
Traveling Press Secretary for the Bush-Cheney 2000 Campaign. 
Earlier he served as Deputy Communications Director in the 
Texas Governor's Office for Governor Bush, as a top legislative 
aide, as a campaign manager for three successful statewide 
campaigns.
    We would appreciate it if you would stand, raise your right 
hand, and take the oath before you begin your testimony.
    [Witness sworn.]
    Mr. Conyers. Thank you very much. Welcome to the Committee.
    Mr. McClellan. Thank you.
    Mr. Conyers. You may begin your statement.
    Mr. McClellan. Is this on?
    Mr. Conyers. You have to press it on.

                 TESTIMONY OF SCOTT McCLELLAN, 
               FORMER WHITE HOUSE PRESS SECRETARY

    Mr. McClellan. Okay.
    Good morning, Mr. Chairman, Congressman Smith, and Members 
of the Committee. I am here today at your invitation to answer 
questions about what I know regarding the Valerie Plame 
episode.
    Back in 2005, I was prohibited from discussing it by the 
White House ostensibly because of the criminal investigation 
underway, but I made a commitment to share with the public what 
I knew as soon as possible. That commitment was one of the 
reasons I wrote my book.
    Unfortunately, this matter continues to be investigated by 
Congress because of what the White House has chosen to conceal 
from the public. Despite assurances that the Administration 
would discuss the matter once the Special Counsel had completed 
his work, the White House has sought to avoid public scrutiny 
and accountability.
    The continuing cloud of suspicion over the White House is 
not something I can remove because I know only one part of the 
story. Only those who know the underlying truth can bring this 
to an end. Sadly, they remain silent. The result has been an 
increase in suspicion and partisan warfare, and a perpetuation 
of Washington's scandal culture, one of three core factors that 
have poisoned the atmosphere in Washington for the past two 
decades.
    The central message in my book is the need to change the 
way Washington governs. We need to minimize the negative 
influence of the permanent campaign, end the scandal culture, 
and move beyond the philosophy of politics as war.
    No one has a better opportunity to make that happen than 
the President. To do so, he must first fully embrace openness 
and candor, and then constantly strive to build trust across 
the aisle and seek common ground to unite Americans from all 
walks of life and political persuasions.
    I believed President Bush could be that kind of leader for 
the country when I first went to work for him in Texas. He was 
a popular, bipartisan leader who had a record of working with 
Democrats. Unfortunately, like many good people who come to 
Washington, he ended up playing the game by the existing rules 
rather than transforming it.
    The larger message of my book is bigger than any person or 
party. It is about restoring civility and bipartisanship and 
candor to our national political discourse. It is about putting 
our Nation's interests above partisan goals. Indeed, all of us, 
especially those in elected office, can do more to make this 
happen by promoting openness and engaging in civil discourse.
    The permanent campaign leads to just the opposite. 
Substantive debates over policy give way to a contest over 
which side can most effectively manipulate the media narrative 
to its advantage. It is about power and electoral victory. 
Governing becomes an offshoot of campaigning rather than the 
other way around.
    Vicious attacks, distortions, political manipulation and 
spin become accepted. Complex issues are reduced to black and 
white terms and oversimplified in the context of winners and 
losers and how they will affect the next election. Too often 
the media unwittingly ignores the impact of Government on the 
daily lives of Americans, focusing foremost on the Beltway game 
and lionizing those who play it most skillfully.
    There is no more recent example of this unsavory side of 
politics than the initial reaction from some in Washington to 
my book. I received plenty of criticism for daring to tell the 
story as I knew it. Yet few of my critics tried to refute the 
larger themes and perspectives in the book. Instead of engaging 
in a reasoned, rational, and honest discussion of the issues 
raised, some sought to turn it into a game of ``gotcha,'' 
misrepresenting what I wrote, and seeking to discredit me 
through inaccurate personal attacks on me and my motives.
    The American people deserve better.
    Governing inevitably has an adversarial element. People and 
groups will always differ about the proper use of limited 
Government resources. But should Government be a process of 
constant campaigning to manipulate public opinion, or should it 
be centered as much as possible on rational debate, 
deliberation, and compromise?
    Writing this book was not easy for me to do. These are my 
words, my experiences, and my conclusions. I sought to take a 
clear-eyed look at events. To do so, I had to remove my 
partisan lens and step back from the White House bubble. Some 
of the conclusions I came to were different from those I would 
have embraced at the outset.
    My book reflects the only idea of loyalty that I believe is 
appropriate in a democratic government, and that is loyalty to 
the ideals of candor, transparency and integrity, and indeed to 
the constitutional system itself. Too often in Washington 
people mistakenly think that loyalty to an individual 
officeholder should override loyalty to basic ideals. This 
false loyalty is not only mistaken, but can exercise a corrupt 
influence on Government.
    I am here because in my heart I am a public servant who, 
like many Americans, wants to improve the way Washington 
governs and does not want to see future Administrations repeat 
the mistakes this White House made. I do not know whether a 
crime was committed by any of the Administration officials who 
revealed Valerie Plame's identity to reporters, nor do I know 
if there was an attempt by any person or persons to engage in a 
cover-up during the investigation. I do know that it was wrong 
to reveal her identity, because it compromised the 
effectiveness of a covert official for political reasons. I 
regret that I played a role, however unintentionally, in 
relaying false information to the public about it.
    I will do my best to answer any questions on this matter 
that Members of the Committee may wish to ask.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McClellan follows:]

                 Prepared Statement of Scott McClellan

    Good morning Mr. Chairman, Congressman Smith, and members of the 
committee.
    I am here today at your invitation to answer questions about what I 
know regarding the Valerie Plame episode. Back in 2005, I was 
prohibited from discussing it by the White House ostensibly because of 
the criminal investigation underway, but I made a commitment to share 
with the public what I knew as soon as possible. That commitment was 
one of the reasons I wrote my book.
    Unfortunately, this matter continues to be investigated by Congress 
because of what the White House has chosen to conceal from the public. 
Despite assurances that the administration would discuss the matter 
once the Special Counsel had completed his work, the White House has 
sought to avoid public scrutiny and accountability.
    The continuing cloud of suspicion over the White House is not 
something I can remove because I know only one part of the story. Only 
those who know the underlying truth can bring this to an end. Sadly, 
they remain silent.
    The result has been an increase in suspicion and partisan warfare, 
and a perpetuation of Washington's scandal culture, one of three core 
factors that have poisoned the atmosphere in Washington for the past 
two decades. The central message in my book is the need to change the 
way Washington governs. We need to minimize the negative influence of 
the permanent campaign, end the scandal culture, and move beyond the 
philosophy of politics as war.
    No one has a better opportunity to make that happen than the 
president. To do so, he must first fully embrace openness and candor 
and then constantly strive to build trust across the aisle and seek 
common ground to unite Americans from all walks of life and political 
persuasions.
    I believed President Bush could be that kind of leader for the 
country when I first went to work for him in Texas. He was a popular, 
bipartisan leader who had a record of working with Democrats.
    Unfortunately, like many good people who come to Washington, he 
ended up playing the game by the existing rules rather than 
transforming it.
    The larger message of my book is bigger than any person or party. 
It is about restoring civility and bipartisanship and candor to our 
national political discourse. It is about putting our Nation's 
interests above partisan goals. Indeed, all of us--especially those in 
elected office--can do more to make this happen by promoting openness 
and engaging in civil discourse.
    The permanent campaign leads to just the opposite. Substantive 
debates over policy give way to a contest over which side can most 
effectively manipulate the media narrative to its advantage. It is 
about power and electoral victory. Governing becomes an offshoot of 
campaigning rather than the other way around.
    Vicious attacks, distortions, political manipulation and spin 
become accepted. Complex issues are reduced to black-and-white terms 
and oversimplified in the context of winners and losers and how they 
will affect the next election. Too often, the media unwittingly ignores 
the impact of government on the daily lives of Americans, focusing 
foremost on the Beltway game and lionizing those who play it most 
skillfully.
    There is no more recent example of this unsavory side of politics 
than the initial reaction from some in Washington to my book. I 
received plenty of criticism for daring to tell the story as I knew it. 
Yet few of my critics tried to refute the larger themes and 
perspectives in the book. Instead of engaging in a reasoned, rational, 
and honest discussion of the issues raised, some sought to turn it into 
a game of ``gotcha,'' misrepresenting what I wrote and seeking to 
discredit me through inaccurate personal attacks on me and my motives.
    The American people deserve better.
    Governing inevitably has an adversarial element. People and groups 
will always differ about the proper use of limited government 
resources. But should government be a process of constant campaigning 
to manipulate public opinion, or should it be centered as much as 
possible on rational debate, deliberation, and compromise?
    Writing this book was not easy for me to do. These are my words, my 
experiences, and my conclusions. I sought to take a clear-eyed look at 
events. To do so, I had to remove my partisan lens and step back from 
the White House bubble. Some of the conclusions I came to were 
different from those I would have embraced at the outset.
    My book reflects the only idea of loyalty that I believe is 
appropriate in democratic government, and that is loyalty to the ideals 
of candor, transparency and integrity, and indeed to the constitutional 
system itself. Too often in Washington, people mistakenly think that 
loyalty to an individual officeholder should override loyalty to basic 
ideals. This false loyalty is not only mistaken, but can exercise a 
corrupt influence on government.
    I am here because in my heart I am a public servant who, like many 
Americans, wants to improve the way Washington governs and does not 
want to see future administrations repeat the mistakes this White House 
made.
    I do not know whether a crime was committed by any of the 
Administration officials who revealed Valerie Plame's identity to 
reporters. Nor do I know if there was an attempt by any person or 
persons to engage in a cover-up during the investigation. I do know 
that it was wrong to reveal her identity, because it compromised the 
effectiveness of a covert official for political reasons. I regret that 
I played a role, however unintentionally, in relaying false information 
to the public about it. I'll do my best to answer any questions on this 
matter that members of the committee may wish to ask.
    Thank you, Mr. Chairman.

    Mr. Conyers. Thank you so much.
    One of the most disturbing revelations in your book was 
that White House officials, including the President and Vice 
President, directed you to falsely vouch for Scooter Libby's 
not being involved in the Wilson leak. Please explain what 
happened and whether you think Mr. Libby was involved in that.
    Mr. McClellan. That happened on the Saturday after the 
investigation, I guess, was launched, which was on September 
29th.
    That Saturday morning I received a call from the White 
House Chief of Staff, Andy Card, and he said that the President 
and Vice President had spoken that morning, and they wanted me 
to provide the same assurances for Scooter Libby that I had for 
Karl Rove. I was reluctant to do it, but I headed into the 
White House that Saturday morning.
    I talked with Andy Card, and I said I would provide the 
same assurances for Scooter Libby provided he gave me the same 
assurances that Karl Rove had. And I got on the phone with 
Scooter Libby and asked him point blank, Were you involved in 
this in any way? And he assured me in unequivocal terms that he 
was not, meaning the leaking of Valerie Plame's identity to any 
reporters. And then I contacted reporters to let them know 
about that information.
    But it was Andy Card that had directed me to do that at the 
request of the President and Vice President.
    Mr. Conyers. You spoke very frequently with the President 
and the Vice President. Do you think either or both of them 
knew about the leak and had any role in causing the leak to 
happen, or knew that Mr. Libby was involved in the leak when 
they helped get you to falsely vouch for him?
    Mr. McClellan. I do not think the President in any way had 
knowledge about it, based on my conversations with him back at 
that time when he said that Karl Rove had not been involved in 
it and told him something to that effect.
    In terms of the Vice President, I do not know. There is a 
lot of suspicion there. As Patrick Fitzgerald said at the trial 
of Scooter Libby, there is a cloud that remains over the Vice 
President's Office, but it is because Scooter Libby put it 
there by lying and obstructing justice.
    Mr. Conyers. In the light of your testimony and your 
statement that you do not think Mr. Libby's criminal sentence 
should have been commuted, do you think that it would be any 
more appropriate to give Mr. Libby a full pardon?
    Mr. McClellan. No, Congressman. I do not, Mr. Chairman.
    I believe that it would signal a special treatment, the 
same thing that happened with the commutation. And the 
President has always held a certain standard for granting 
pardons, even going back to when he was governor; and I worked 
for him then. And that is that the person must first repay his 
debt to society, and second, must express remorse for the 
crimes which he committed. And we have seen neither of that 
from Scooter Libby at this point.
    Mr. Conyers. Thank you.
    The Chair recognizes Lamar Smith.
    Mr. Smith. Thank you again, Mr. Chairman.
    Mr. McClellan, your title of the book,What Happened: Inside 
the Bush White House and Washington's Culture of Deception, 
implies that the President himself engaged in some amount of 
deception. Yet elsewhere in the book you say he did not engage 
in outright deception.
    Who was it that suggested the title to your book?
    Mr. McClellan. The title to my book, What Happened?
    Mr. Smith. No, who suggested----
    Mr. McClellan. Or Inside--the subtitle?
    Mr. Smith. Right.
    Mr. McClellan. This was something I talked about with my 
publisher.
    Mr. Smith. So Mr. Osnos is----
    Mr. McClellan. We came to an agreement on it.
    But in terms of the----
    Mr. Smith. Since it contradicts what you----
    Mr. McClellan. Inside the Bush White House and Washington's 
Culture of Deception? That was something we all discussed.
    Mr. Smith. And who is the ``we''?
    Mr. McClellan. With the publisher.
    Mr. Smith. That is Mr. Osnos?
    Mr. McClellan. That would include Mr. Osnos.
    Mr. Smith. Okay. Thank you.
    It has been reported that you received $75,000 as an 
advance to your book; is that true?
    Mr. McClellan. That is correct.
    Mr. Smith. And you are also aware, of course, that every 
book that sells means more money to you as well.
    Mr. McClellan. I am sorry?
    Mr. Smith. You are aware, the more books you sell, the more 
money goes to you, I presume?
    Mr. McClellan. Yes, a small percentage goes to the author 
usually in situations like that.
    Mr. Smith. Is it true that Karl Weber was the project 
editor?
    Mr. McClellan. Yes, he worked with me.
    Mr. Smith. Okay. Were you aware before you worked with him 
that he had called President Bush a ``clearly horrible person'' 
and had said, quote, ``He is consciously manipulative and 
deceitful''?
    Mr. McClellan. No, I was not.
    Mr. Smith. Okay. So, in other words, someone who called the 
President a ``clearly horrible person'' helped you draft and 
edit the book; Is that right?
    Mr. McClellan. Actually this is my book. I wrote this book. 
And he did provide great help as an editor.
    Mr. Smith. Yeah. Did he edit the book?
    Mr. McClellan. He was an editor on the book, yes.
    Mr. Smith. Okay.
    You write that you witnessed Mr. Rove and Mr. Libby meet in 
Mr. Rove's office behind closed doors, and you inferred that 
they were conspiring to mislead the grand jury looking into the 
Valerie Plame investigation at the time.
    Did you hear any portion of their conversation?
    Mr. McClellan. No, sir, I did not. I say that in the book.
    Mr. Smith. And so it is speculation on your part as to what 
they were saying?
    Mr. McClellan. Well, I thought full disclosure was the only 
way I could go. I said I was going to discuss everything I knew 
about the episode.
    Mr. Smith. But you were still speculating as to what you 
thought they were saying?
    Mr. McClellan. I said it was suspicious to me. I said--in 
the book I said, I do not know what they discussed behind 
closed doors.
    Mr. Smith. And they could have been talking about, who 
knows, the Supreme Court nominations at the time, or anything 
else?
    Mr. McClellan. They could have been.
    Mr. Smith. Thank you.
    And is it true that Deputy Secretary of State Richard 
Armitage has admitted that he was the source of the Valerie 
Plame leak?
    Mr. McClellan. Well, to Robert Novak, but there were other 
reporters that that information was revealed to prior to it 
being public. And there was a report in the Washington Post 
that he has identified at least six reporters were told about 
her identity.
    Mr. Smith. And wasn't that the first public leak?
    Mr. McClellan. That was the first time it was published, 
but her identity was revealed----
    Mr. Smith. That is correct. That is correct, that was the 
first time her name was published.
    Mr. McClellan. I am sorry, I couldn't hear you over the 
buzzer.
    The first time her name was published. Yes, but I would 
like to make the point----
    Mr. Smith. Richard Armitage----
    Mr. McClellan. Could I finish my answer?
    Mr. Smith. Richard Armitage has admitted that he was the 
source. Do you agree with that? Or do you question his----
    Mr. McClellan. He was the initial source for Robert Novak. 
Karl Rove was the confirming source.
    Mr. Smith. Right. And that was----
    Mr. McClellan. Karl Rove, Scooter Libby, and Ari Fleischer 
also--can I finish my response?
    Mr. Smith. That was the first time her----
    Mr. McClellan. They also revealed her name to other 
reporters prior to it being published publicly.
    Mr. Smith. Right. But that was--the first time her name was 
ever published was when the----
    Mr. McClellan. Yes. As I point out in the book, that is 
correct.
    Mr. Smith. Thank you, Mr. McClellan.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    That was a call for a Journal vote.
    The Chair recognizes----
    Mr. Lungren. Mr. Chairman? Mr. Chairman?
    Mr. Conyers. What is the problem?
    Mr. Lungren. The problem is, we are the Committee of 
jurisdiction on FISA. As I understand it, FISA----
    Mr. Conyers. It is a Journal vote.
    Mr. Lungren. I understand, but could you inform the 
Committee as to what the process is going to be and whether we 
are going to be----
    Mr. Conyers. Oh, we are going to cover--we are going to be 
on the floor and the hearing will be suspended.
    Mr. Lungren. Will we be--will there be an opportunity for 
Members to be on the floor for the debate on the rule for FISA 
or just for FISA debate itself?
    Mr. Conyers. No, no, not the rule, but the debate. You can 
use your own option, though.
    The Chair recognizes the Chairman of the Constitution 
Subcommittee of Judiciary, the gentleman from New York, Jerry 
Nadler.
    Mr. Nadler. Thank you.
    I am going to ask a series of questions, so try to keep the 
answers brief because I only have 5 minutes.
    Do you have any knowledge of whether prior to or after the 
leak of Ms. Wilson's covert identity either the Vice President 
or the President declassified her covert status in order to 
have it leaked to reporters?
    Mr. McClellan. No, I do not.
    Mr. Nadler. And do you have any information of the role, if 
any, played by the Vice President in the leaking of Ms. 
Wilson's identity?
    Mr. McClellan. No, I have no direct knowledge of that.
    Mr. Nadler. And do you have any idea why Vice President 
Cheney may have knowingly indirectly or directly instructed you 
to publicly exonerate Mr. Libby?
    Mr. McClellan. No, sir, I do not. I was not a party to that 
conversation with the President.
    Mr. Nadler. Do you have any idea whether at the time he 
knew that Mr. Libby had, in fact, been involved in the leak?
    Mr. McClellan. I am sorry?
    Mr. Nadler. Do you have any idea whether, when he gave that 
instruction, he knew at that time that Mr. Libby had, in fact, 
been involved in the leak?
    Mr. McClellan. No, I do not know that.
    Mr. Nadler. In any event, did you come to learn that Karl 
Rove and Scooter Libby had lied to you, and that each of them 
was involved in the Plame leak?
    Mr. McClellan. Yes, I did. About----
    Mr. Nadler. Can you comment on that briefly, how you 
learned that.
    Mr. McClellan. That was in--well, first in July of 2005, 
when it was about to be reported in the media, I learned that 
Karl Rove had revealed her identity to Matt Cooper of Time 
magazine. And then a short time after that it was Robert Novak. 
And then, within the next few months, it was learned that 
Scooter Libby had also revealed her identity to reporters.
    Mr. Nadler. Okay.
    Now, the President had promised the American people and 
stated publicly when this first came out that he was going to 
investigate internally, find out who had leaked the 
information; whoever had leaked would no longer be in the 
Administration, et cetera, because this was a terrible thing.
    Do you know what steps, if any, were taken by the White 
House to conduct an internal investigation into the leak?
    Mr. McClellan. As far as I know, the White House Counsel's 
Office worked to provide information to the Justice Department 
that was gathered during the process of the investigation at 
their request, e-mails and things of that nature. But I don't 
know of any internal----
    Mr. Nadler. You don't know of any internal investigation to 
find out for the President so that he could fire or do----
    Mr. McClellan. My understanding was, we weren't doing any 
of that.
    Mr. Nadler. You weren't doing any of that.
    Now, the President commuted Mr. Libby--commuted Mr. Libby's 
sentence. Now, this would seem--well, do you regard this as, in 
any way, a violation of the President's pledge to find out all 
the information he could and make it public about this?
    Mr. McClellan. Well, I certainly think that the President 
should have stuck by his word on the matter. And I certainly 
view the commutation as--it was special treatment; it does 
undermine our system of justice in my view.
    Mr. Nadler. I am not sure what you are saying in the first 
part. The President's commutation of Mr. Libby's sentence was 
somehow not standing by his word?
    Mr. McClellan. Well, I don't know that it is not standing 
by his word. I don't know that he said anything specifically 
about a commutation. But he did say anyone that was involved in 
this--and I said, on his behalf, no one would be employed by 
this Administration any longer, so----
    Mr. Nadler. And would you regard the President's 
commutation as--do you think it is fair to infer from your 
knowledge that the President's commutation of Mr. Libby's--of 
the conviction, whatever it was--that his commutation was part 
of an effort to, in fact, assure that all the facts would not 
become public, part of a cover-up, in fact?
    Mr. McClellan. I do not know that. I do not make that 
claim, and I do not have the information to know whether or not 
that was the thinking.
    I had already left the White House by the time he commuted 
Scooter Libby, but there were a lot of suspicions that were 
raised because of that action.
    Mr. Nadler. Okay.
    Now, in your book--oh, and before I go to this last 
question, let me, on behalf of some Members of the Committee, 
apologize to you for the aspersions as to your motives instead 
of asking you questions about the truth or evidence of what you 
wrote that we heard a few minutes ago.
    Such character assassination has no business in this 
Committee.
    Mr. McClellan. Thank you.
    Mr. Nadler. In your book, Mr. McClellan, you state that the 
Iraq war was sold to the American people with a sophisticated 
political propaganda campaign that included overstating 
intelligence in Iraq, manipulating sources of public opinion, 
downplaying the major reasons for going to war. As the 
President's former Deputy and Chief Press Secretary, it is a 
very serious charge.
    Could you explain why you think that this was a political 
propaganda campaign as opposed to simply informing the American 
public as to what was going on?
    Mr. McClellan. Well, it was a marketing campaign or a 
propaganda campaign, however you want to refer to it. What I 
talk about in the book is that we took this permanent campaign 
mentality that was used on other issues like Social Security or 
education reform and used it to take the Nation to war, and 
sold the Nation on the premise that Iraq was a grave and 
gathering danger.
    We now know that it was not, that the case was overstated, 
it was overpackaged in the way that the intelligence was used. 
That was something that----
    Mr. Nadler. And by ``overpackaged in the way the 
intelligence was used,'' do you mean they were declassifying 
only those portions of intelligence that seemed to indicate the 
threat and not those portions of the intelligence that 
downplayed the threat or said, we are not sure of this 
information?
    Mr. McClellan. I think it is public record that they were 
ignoring caveats and ignoring contradictory intelligence.
    The implication and innuendo that was used to talk about 
the connection to al Qaeda, for instance, is one example. The 
Senate Intelligence Committee for the first time just released 
a report about how the intelligence was used and backed up a 
lot of----
    Mr. Nadler. And therefore misrepresenting the facts and 
misleading the Congress and the American people?
    Mr. McClellan. Yes, it was more to make the strongest 
possible case. And in doing so, they ignored caveats, they 
ignored contradictory----
    Mr. Nadler. And mislead and misrepresent, therefore?
    Mr. McClellan. It had that effect.
    I do not think it was necessarily deliberate on the part of 
a group. Whether individuals were doing things intentionally or 
deliberately, I do not know. But I don't think there was a 
group sitting around trying to conspire to say, let's mislead 
the American people. Instead, it was, how do we make the 
strongest possible case?
    But when you are going to war, it is particularly troubling 
when you use that kind of mentality and you don't speak about 
the truths of the situation as best you know them, including 
the contradictory intelligence, including the caveats and 
qualifications, and including the consequences, the risk, and 
the cost of going into war. And we did not do that.
    Mr. Nadler. Thank you very much.
    Mr. Conyers. The Chair recognizes the distinguished 
gentleman from North Carolina, senior Member of the Committee, 
Howard Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. McClellan, let me follow up on the war issue. I voted 
to dispatch troops to Iraq, believing that Saddam Hussein was 
an international terrorist, which I still believe. I 
furthermore believed that there were weapons of mass 
destruction in Iraq, or they had the capability of developing 
same, which I still believe. I believed that a post-entry 
strategy had been formulated. I am not sure I believe that now.
    Was there a post-entry strategy?
    Mr. McClellan. I am sorry, post-what strategy, sir?
    Mr. Coble. Post-entry strategy. After we go in and take him 
out, was there any sort of plan whereby A, B, C was to be 
followed?
    Mr. McClellan. Well, I think that the public record shows, 
there were a lot of problems with the post-invasion planning 
and preparation. That was not something I was directly involved 
in. Certainly from a communications standpoint I was, but not 
from the planning standpoint.
    Mr. Coble. That has plagued me from Day One, and I am still 
uneasy about that.
    Now, let's shift gears to Scooter Libby. I know we are on a 
short time frame here, Mr. Chairman.
    Your book, Mr. McClellan, includes many recollections from 
your experiences working in the White House during this time. I 
had some problems as to whether or not Scooter Libby should 
have been prosecuted. I still have some doubts about that.
    But what was your reaction, Mr. McClellan, when you learned 
that former Deputy Secretary of State Richard Armitage revealed 
the identity of Mrs. Valerie Plame Wilson? And do you think 
that more should have been done to hold Mr. Armitage 
accountable?
    Mr. McClellan. I can't speak directly to whether or not he 
should have been held accountable. I don't know the facts of 
why he revealed her name, other than what has been reported 
during the trial and during the investigation publicly and what 
he has stated publicly since that time.
    Obviously, I think that all of the information should have 
been put out as quickly and as soon as possible about exactly 
what occurred and when it occurred. And maybe we wouldn't have 
ended up where we did.
    But I think that the problem here is that this White House 
promised or assured the American people that at some point, 
when this was behind us, they would talk publicly about it. And 
they have refused to. And that is why I think, more than any 
other reason, we are here today and this suspicion still 
remains.
    Mr. Coble. But as to the post-entry strategy, you are not--
you really don't have your hands around that.
    Mr. McClellan. Yeah, I can't speak specifically to all the 
planning there because that was done without me being in those 
discussions.
    Mr. Coble. That has just plagued me, and I have said so 
publicly.
    I yield back, Mr. Chairman.
    Mr. Conyers. Thank you. Members of the Committee, we do 
have three votes--on the Journal, ordering the question on the 
rule on the Stop Child Abuse law, and then on H. Res. 1276, a 
rule providing for consideration of 5876. And then we begin 
debate on the FISA bill. And so we will stand in recess until 
we have covered all of those matters and then resume 
immediately when we return.
    Thank you very much. The Committee stands in recess.
    [Recess.]
    [12:40 p.m.]
    Mr. Conyers. The Committee will come to order. I am pleased 
now to turn to the distinguished Chairman of the Crime 
Subcommittee of the House Judiciary Committee, Bobby Scott of 
Virginia.
    Mr. Scott. Mr. McClellan, in response to a question from 
the Chairman, you were asked about the situation where Scooter 
Libby, where Mr. Kurlard called you and asked you to try to get 
Scooter Libby also exonerated. Do you have any reason to 
believe that Mr. Libby himself was involved in that effort to 
get himself exonerated?
    Mr. McClellan. Yes, I do. We spoke earlier that week, I 
believe it was Wednesday of that week when I told Scooter Libby 
that I was not going to go down a list of White House aides and 
start trying to exonerate them now that the investigation was 
officially under way, and he expressed his appreciation that I 
let him know that. But I think that as his name continued to 
surface, he certainly was behind that effort to make sure that 
I exonerated him. And I later saw public documents with his 
handwriting putting down some talking points that I should use. 
Now, I never saw those talking points myself until they came 
out in the press.
    Mr. Scott. You mentioned several people that were leaking 
Valerie Plame's name all over town. Do you have reason to 
believe this was a coordinated effort?
    Mr. McClellan. I don't know for sure. There were certainly 
three--at least three White House aides that revealed her 
identity to reporters. But I don't know personally whether it 
was a concerted effort. I was Deputy Press Secretary at that 
time, so I was not involved in any effort, if there was.
    Mr. Scott. Now, it seemed to me that in response whether or 
not individuals might have been involved with the leaking of 
the name, the Administration seemed to leave a clear impression 
that Valerie Plame was fair game in the debate over Mr. 
Wilson's information. And it seemed to leave the impression 
that anyone who in effect told the truth, thereby criticizing 
the Administration effort to get us into war, might reasonably 
expect problems, including having the lives of their family 
members put in jeopardy. Was that an intentional impression?
    Mr. McClellan. Well, I certainly think that for at least 
some people that she became just another talking point in this 
effort to discredit her husband, Joe Wilson. Whether or not I 
could characterize it before that, I would hesitate to 
characterize it more than that.
    Mr. Scott. Well, she was a covert CIA agent. Was she not?
    Mr. McClellan. That is right.
    Mr. Scott. And revealing her identity could reasonably be 
expected to jeopardize her life. Is that not true?
    Mr. McClellan. It is a serious matter. And as I said in my 
opening statement, it was wrong. Whether or not it was 
criminal, it was certainly wrong because of her covert national 
security status.
    Mr. Scott. And did it not leave the impression with people 
that family members' lives may be in jeopardy if you tell the 
truth about what is going on?
    Mr. McClellan. You mean people that were involved in 
revealing her identity?
    Mr. Scott. Right?
    Mr. McClellan. I can't speak for them. But they should have 
been more careful about it, that is for sure.
    Mr. Scott. Another piece of information that was involved 
in the run-up of the war was what the war would cost. I serve 
on the Budget Committee in addition to the Judiciary Committee; 
I was serving on the Budget Committee at the time, and we were 
told to ignore the cost of the war because it would be so 
negligible as not worthy of Budget Committee consideration. Are 
you aware of that testimony?
    Mr. McClellan. I don't know if I am familiar with that 
specific testimony, but I am sure certainly aware that we left 
the impression that it would be less costly and for a shorter 
duration than what has happened.
    Mr. Scott. The present estimates of the total cost of the 
war are now $3 trillion. What information did the 
Administration have that could have led us to believe, if we 
had gotten truthful information, that the cost of the war would 
be significant?
    Mr. McClellan. Well, certainly I recount in the book a 
conversation that Larry Lindsey had making some projections in 
September of 2006--or 2002, I believe, informing a reporter 
that he thought it might cost somewhere between $100 billion 
and $200 billion; which at the time everybody seemed to think 
it was high, and now we realize that even that estimate was 
considerably low.
    Mr. Scott. And what happened to him and his estimates?
    Mr. McClellan. Well, he left the Administration a few 
months later.
    Mr. Scott. Was he fired?
    Mr. McClellan. He resigned. But my understanding, that he 
was asked to leave as well.
    Mr. Scott. So we find that his estimate was truthful, 
honest, candid, and turns out to be even optimistic that it 
could only cost $100 billion to 150 billion, and he was fired 
for telling the truth?
    Mr. McClellan. That is correct. It is not something that we 
wanted to discuss at the White House.
    Mr. Scott. Now, we had a similar situation with a Medicare 
estimate, the prescription drug benefit costs. Administration 
officials knew that the number we were working with was not the 
correct number, that the number was actually higher. Is that 
right?
    Mr. McClellan. I guess there was a different estimate 
between Congressional Budget Office and the Medicare actuaries, 
if I remember correctly. My brother might be better to testify 
for that.
    Mr. Scott. What happened to the Administration official 
that had that accurate information? And was he threatened if he 
revealed it?
    Mr. McClellan. I understand it that the Administrator at 
the time, I understand from public records, that something 
along those lines did happen, if I remember correctly.
    Mr. Scott. Now, is this a pattern, that people who tell the 
truth get sanctions?
    Mr. McClellan. Well, as I say in the book, I think that we 
have not embraced a high level of openness. This is a very 
secretive White House that tends to be pretty compartmentalized 
and very disciplined in terms of what methods or talking points 
they put out there, and there are some things that they would 
prefer not to be talked about. I think that is what you are 
getting at.
    Mr. Scott. Well, I was wondering what you were getting at.
    Mr. McClellan. Yes. Both of us. Yes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Conyers. Mr. McClellan, is there a clarification that 
you would like to make about a discussion we had earlier?
    Mr. McClellan. Yes, Mr. Chairman. There was a comment made 
earlier and I would like to clarify the record. There was a 
quote attributed to one of my editors, Karl Weber, describing 
the President as a clearly horrible person. Actually, that was 
a comment that was made by his daughter; and his daughter's 
name is on that post, it is on the family blog site. 
Irregardless, the views and conclusions in the book are mine, 
and they were not affected by any editor.
    Mr. Conyers. Thank you very much.
    Mr. McClellan. Thank you.
    Mr. Conyers. We now turn to Mr. Ric Keller, who is the 
gentleman from Florida who serves on the Administrative 
Commercial Law Subcommittee. He also serves on the Intellectual 
Property Committee. And, in addition, he serves on the 
Antitrust Task Force Committee. The gentleman is recognized.
    Mr. Keller. Thank you, Mr. Chairman.
    And thank you for being here, Mr. McClellan.
    Mr. McClellan. Thank you.
    Mr. Keller. Mr. McClellan, all of us in public life have 
probably, myself included, said some things that in retrospect 
we wished we would have worded it a little differently or used 
a different adjective or phrase. Is there anything in your book 
that if you had it to do over again, any phrase or adjective 
that you might write differently?
    Mr. McClellan. No. I think the book clearly reflects my 
views and my conclusions, and I stand by them.
    Mr. Keller. Thank you. Some of the adjectives or what some 
people consider to be some loaded words that you used in your 
book were that the Bush administration shaded the truth, used 
innuendo, and engaged in a propaganda campaign. Do you stand by 
those words?
    Mr. McClellan. I do.
    Mr. Keller. Did President Bush ever ask you personally to 
shade the truth, use innuendo, or engage in a propaganda 
campaign?
    Mr. McClellan. Not in those words.
    Mr. Keller. Did the President ever knowingly mislead you or 
withhold information from you?
    Mr. McClellan. Well, I think that one episode I recount in 
the book is when I learned that the President had secretly 
authorized the Vice President to get out some information of 
the--the National Intelligence Estimate on Iraq to reporters 
and do it anonymously. We had decried the selective leaking of 
classified information for years, the President and myself as 
the spokesman, and so that was certainly something that caught 
me by surprise and was a very disillusioning moment for me, to 
say the least.
    Mr. Keller. Mr. McClellan, I am referring to page 269 of 
your book. You said, quote, ``I never felt the President had 
knowingly misled me or withheld relevant information from me.'' 
Do you wish to change that phrase?
    Mr. McClellan. No, I don't wish to change that phrase.
    Mr. Keller. So you said in the book you don't think he 
misled you knowingly. And just now you said you think there was 
an occasion where he did mislead you knowingly?
    Mr. McClellan. No, I am not saying that he was trying to do 
it consciously or deliberately. But it had that same effect in 
terms of the National Intelligence Estimate. So I think there 
is a distinction there to be drawn.
    Mr. Keller. And I want to talk about your personal 
knowledge as opposed to your opinion with respect to this 
question. Did you ever witness any meeting or see any document 
or overhear any conversation when the President asked someone 
else to lie, shade the truth, use innuendo, or engage in 
propaganda?
    Mr. McClellan. It had the effect by the way we went about 
selling the war to the American people, as I outlined in the 
book in some detail.
    Mr. Keller. And I understand your opinions, and I think you 
are entitled to opinions and I am not going to hit you on 
having your opinions and I am not even going to hit you on 
making money off of those opinions. But do you have any 
personal knowledge of hearing the President ask someone else to 
lie or shade the truth?
    Mr. McClellan. No. It is the whole idea of the permanent 
campaign mentality and when you are trying to make the 
strongest case. And it is what you leave out that has that same 
effect. And that is the point I make in the book. Whether or 
not it is deliberate or conscious, it still is very troubling, 
particularly when you are talking about making the case for 
war.
    Mr. Keller. Now, your purpose in writing the book, as you 
testified today, is to promote civility and bipartisanship, and 
to end the scandal, culture, and the poisonous political 
attacks. Correct?
    Mr. McClellan. Absolutely.
    Mr. Keller. You write in the book about a very personal 
issue of the President allegedly using an illegal drug over 30 
years ago, and you overhearing his private conversation with a 
supporter about that. What about that topic that you decided to 
include in your book do you think promotes civility and 
bipartisanship?
    Mr. McClellan. It is not the issue that you bring up. It is 
what the President, how he approached that issue. And I think 
it is something that a number of politicians probably do when 
he said that ``I can't recall.'' And my concern about that was 
that later transferred over into issues of policy. That 
particular issue, it didn't bother me whether or not he had 
used cocaine previously or not, that wasn't the issue, 30, 40 
years ago. The issue was how he approached it and how that 
transferred over into other issues. And I think it tells 
something about his character. It was important to the book.
    Mr. Keller. Something about his character? Because he 
allegedly had used drugs over 30 years ago, so that says 
something about his character?
    Mr. McClellan. That is not the point I am making in 
describing that in the book. The point I make is that he said 
he couldn't recall it, or at least he said he couldn't recall 
it. And I thought, how can that be? And then there were other 
times that I later learned that he used that same response for 
other issues.
    Mr. Keller. Well, since that is such a key character issue, 
do you recall if you have ever used illegal drugs?
    Mr. McClellan. Yes. And I haven't.
    Mr. Keller. Would you agree----
    Mr. McClellan. In fact, I write about it in the book in 
that same section. I talk about my own experiences.
    Mr. Keller. Would you agree with me that nothing about that 
little private story of you overhearing serves to end the 
scandal, culture, or poisonous political attack culture?
    Mr. McClellan. Actually, I do. I think it is a very 
important lesson to look at why politicians sometimes take that 
approach, this defense of ``do not recall'' when it is 
essentially an evasion. And the President, I think we all 
remember very well when he was asked about the National 
Intelligence Estimate on Iran, and he had been talking about 
how Iran was continuing to pursue nuclear weapons and he had 
had a National Intelligence Estimate even during that time 
telling him that they had suspended their nuclear weapons 
program, but he said he couldn't recall in a briefing. I think 
it is important for people to understand why a politician might 
take that kind of position.
    Mr. Keller. I am just saying that some people think that 
you are a truth teller and a whistleblower and you are trying 
to bring back civility and bipartisanship, and others 
characterize you differently with different motives. And I am 
just saying, if you assume the best, that you really are here 
to promote civility and bipartisanship and do away with the 
scandalous information, why include the sensational fact that 
even you yourself, there is probably something you yourself 
have said is probably something that should be off limits?
    Mr. McClellan. I disagree, and that is why you talk about 
it in part. But my purpose of this book is about changing the 
way Washington governs for the better. And to do that, you have 
to restore candor and honesty. And the President was not 
approaching this in a very direct and honest way. And that is 
why I use that example in the book.
    Mr. Keller. But you didn't use that in your original book 
proposal that you wrote in December of 2006. You didn't mention 
anything about this alleged drug use.
    Mr. McClellan. I didn't mention it specific. But I think I 
mentioned that period, about the 2000 campaign and going back 
and looking at some of those issues. It was a big issue there 
in the campaign, one of many issues, and I think it was 
relevant to talking about the President's leadership style and 
his character.
    Mr. Keller. Some would say that you included that 
sensational information about the alleged drug use and his 
denial not to promote bipartisanship and civility but rather to 
promote book sales. Do you disagree with that characterization?
    Mr. McClellan. I think if you read it, it is a very 
thoughtful look at this issue. It is not looking at whether or 
not--you know, the truth behind that. It is looking at a 
broader character issue.
    Mr. Keller. Okay. Has your initial book proposal from 
December of 2006 been reflective of the book that you 
ultimately wrote, or is it fair to say, as Ari Fleischer did, 
that you have essentially changed over the course of the past 
year and that your version of events have changed?
    Mr. McClellan. Well, it is fair to say that the initial 
book proposal included one of the key themes that I developed 
in my book, which was, how did this popular bipartisan Governor 
of Texas become one of the most controversial and polarizing 
Presidents in modern history? And I said that was one of the 
issues I wanted to look at, and I answered the question why.
    Now, yes, I started with some preconceived notions and 
wanted to put responsibility a lot of different places. But as 
I went through the book and reflected and researched things, I 
came to the conclusions that I did. It was a constant search 
for the truth as I was going through this book. I put a lot of 
thought into it. This book was not something that was easy to 
write. The words did not come easily to me. But it is what I 
believed happened, and it is my views and my conclusions and my 
perspective on things.
    Mr. Keller. And, Mr. Chairman, my time has expired, so if 
you will indulge me, let me leave this one final question. And 
I just want to be fair to you, Mr. McClellan, and get your side 
out. That is why I am asking you these questions.
    I know you have a concern about the President engaged in a 
permanent campaign, and I think you have made similar concerns 
about the Clinton White House as well and that you hoped it 
would be different. And I can understand your cynicism from 
time to time. But isn't it also true that this is the same 
President who worked very closely with Democrats on No Child 
Left Behind, and to the chagrin of some conservative 
Republicans he worked side by side with Ted Kennedy to allow 
illegal immigrants to have a path to citizenship?
    Mr. McClellan. I write about those early days in the book 
and I actually talk about that. But you can't separate some of 
the other more consequential decisions that were made that 
overshadow some of those more positive aspects.
    Mr. Keller. Thank you, Mr. McClellan, and thank you, Mr. 
Chairman. My time has expired.
    Mr. Conyers. Thank you.
    I would like to recognize Robert Wexler of Florida, who 
serves the Judiciary Committee on the Intellectual Property 
Committee.
    Mr. Wexler. Thank you, Mr. Chairman. Thank you, Mr. 
McClellan, for appearing before this Committee today.
    Your book raises many questions about an Administration 
that is incapable of telling the truth and, in your words, 
avoids accountability.
    I want to focus on how and why Scooter Libby came to reveal 
the identity of covert CIA Agent Valerie Plame Wilson. From 
everything we know about this Administration, it is 
inconceivable that Mr. Libby would have acted alone. It is 
essential we learn who ordered or gave permission to Mr. Libby 
to expose the identity of this covert agent. The President and 
Vice President have denied ordering this illegal leak, but 
logic and the chain of command dictates that it must have been 
one of them.
    Mr. McClellan, in your book you state that you cannot 
believe President Bush authorized the leak of Valerie Plame 
Wilson's status as a covert agent. It is unimaginable to you 
that the President, one of only two people with the authority 
to give Libby the go-ahead to make this leak, actually did it. 
So who does that leave us? The Vice President.
    You do not defend Mr. Cheney in your book. In fact, the 
lack of faith you express in the Vice President in your book is 
striking. Why?
    Mr. McClellan. Well, he is someone that keeps things pretty 
close to the vest, to say the least. I do not know what his 
thinking is or what his involvement was in this whole episode. 
I think that Patrick Fitzgerald stated it well when he talked 
about the cloud that was remaining over the Vice President's 
office because of Scooter Libby's actions that led to his 
conviction on four counts, I guess. But there is a lot of 
suspicion there, because there are questions that have never 
been answered despite the fact that we said at some point we 
would address these issues.
    Mr. Wexler. So this suspicion leads you to believe that 
Vice President Cheney could have authorized Mr. Libby's leak?
    Mr. McClellan. I can't rule it out. And I think that 
Scooter Libby in some testimony that was released talked about 
it is possible that he could have first learned about her or 
that the Vice President could have even asked him to get that 
information out.
    Mr. Wexler. Thank you for your candor, Mr. McClellan. And 
your suspicion or the doubts that you raised fit in very nicely 
to what it is we do know. We do know Mr. Cheney has been deeply 
involved in the efforts to cover up the leak and exonerate Mr. 
Libby. We know Mr. Cheney called you to have you unknowingly 
lie to the American people about Libby's involvement. We know 
that the Vice President wrote a note where he starts to write 
and then crosses out the fact that the President himself asked 
Libby to stick his neck into a meat grinder to protect the 
Administration. It is clear to me that Mr. Cheney is the only 
one left, the only likely suspect to have ordered the leak.
    If Mr. Cheney really thought Libby was innocent, then his 
note would have likely said something like, we need to protect 
this man who has done nothing wrong. But that is not what Mr. 
Cheney's note said. The Vice President's own hand betrays him 
and Libby and implicates the President of the United States.
    These facts and your testimony, Mr. McClellan, are more 
than enough, in my view, to open up impeachment hearings.
    Furthermore, the President's use of the pardon power to 
deflect an investigation into his own wrongdoing by granting a 
commutation to the man who may have lied for him would 
constitute an abuse and crime of the highest order, and we must 
determine on this Committee conclusively whether or not this 
happened.
    Thank you, Mr. McClellan, for exposing some of the lies 
that were propagated by this White House. But, unfortunately, 
as you have said I believe as well, others in this White House 
have been blocking access to the truth.
    It is time we sweep away the bogus claims of executive 
privilege and get Karl Rove, Andy Card and others before this 
Judiciary Committee. We have the power of inherent contempt, 
and, if need be, we should use it.
    Mr. McClellan, what you have provided today to the American 
people is enormously important. You are the first high official 
in this Administration to come before this Congress and offer 
us a glimpse into the truth. I commend you for being here 
today.
    Mr. McClellan. Thank you, Congressman. I do believe it is 
important for the American people to have the truth.
    Mr. Conyers. Thank you. I now turn to the gentleman from 
Virginia, former Chairman of the Agriculture Committee, but for 
many years a Member of Judiciary Committee that served on the 
Intellectual Property Subcommittee and the Immigration 
Subcommittee. You are recognized at this time, sir.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    And, Mr. McClellan, welcome. I would like to talk about the 
nature of the termination of your employment at the White 
House. Were you fired?
    Mr. McClellan. I actually describe it in detail in the 
book. Josh Bolten had decided to make a change in the White 
House Press Secretary position. I was also ready to leave at 
the time.
    Mr. Goodlatte. And you were upset about this, were you not?
    Mr. McClellan. I am not the kind of person who gets angry 
or upset really. I think most people that know me know that. I 
was certainly someone that was disillusioned at that moment, 
anyway, as I talk about in the book. So I was looking to leave 
at some point in that time frame, anyway.
    Mr. Goodlatte. You say in the book on page 299: My 
emotional response was strong and immediate. I thought to 
myself, he is ready to throw me to the wolves. I thought how 
long I had worked for the President and about how loyal I had 
been to him.
    I know that in your book you immediately follow this 
passage with the recognition that you understood why they felt 
they needed to take the Press Secretary position in a new 
direction. But those are pretty strong feelings you had.
    Mr. McClellan. I think they are natural initial reactions. 
But as I say in book, I went on to describe that I understood 
where he was coming from.
    Mr. Goodlatte. Let me ask you about that. Were you happy in 
your job before this conversation?
    Mr. McClellan. No. I was disillusioned at that moment. As I 
say, I had just learned about a week or two before that about 
the President's National Intelligence Estimate being secretly 
declassified by the President himself.
    Mr. Goodlatte. Well, today, over 2 years after that 
conversation, are you still angry with Josh Bolten?
    Mr. McClellan. No. Not at all.
    Mr. Goodlatte. You then moved on to prepare to write this 
book. And the Associated Press has quoted Steve Ross, who is 
the publisher of the Collins division of HarperCollins, as 
saying: Books by spokespeople rarely contain anything 
newsworthy and have generally not proven particularly 
compelling to consumers, and that your proposal was, quote, 
shopped around, but like others who publish in the category, we 
didn't even take a meeting based upon past history.
    Now we move forward to your current publisher.
    Mr. McClellan. I believe I met with some part of 
HarperCollins, actually.
    Mr. Goodlatte. Let me move forward to the folks who 
actually did decide to publish, and I would like to read you 
some more quotes from your publisher. Mr. Osnos has stated of 
you, quote: A lot of people were skeptical about how far Scott 
would go in shaping his criticism he's delivered in every 
respect.
    Were you asked to be aggressive with your criticism in the 
book by anyone that causes it be published by this publishing 
entity and turned down by others prior?
    Mr. McClellan. No. Actually, there were at least three 
proposals, I believe, on the book. And, no, I was not. In fact, 
I told each of the publishers I met with that I was going to be 
candid, that I was going to search for the truth. And I think 
Peter Osnos understood that was where I was coming from and he 
appreciated that. He actually called some people, some 
reporters that he knew to find out: If he said something like 
that, could I take him at his word. And those reporters told 
him, yes, you can take him at his word. He is a straight 
shooter.
    Mr. Goodlatte. Now, where else have you appeared to discuss 
your book?
    Mr. McClellan. I have been on a book tour. I've been doing 
a number.
    Mr. Goodlatte. Can you give me a rough number of the number 
of TV shows that you have appeared on?
    Mr. McClellan. No. I think that is probably all out there 
in the public realm. But there have been a number of national 
shows.
    Mr. Goodlatte. Dozens?
    Mr. McClellan. I'm sorry?
    Mr. Goodlatte. Dozens?
    Mr. McClellan. I don't know if it is dozens, but it's 
certainly a lot.
    Mr. Goodlatte. Did this particular publisher offer you the 
most money?
    Mr. McClellan. Out of the ones that were the book 
proposals? I would have to go back and look. I think there was 
one that was within the same range, and then the other one was 
a little bit less.
    Mr. Goodlatte. But basically the most.
    Mr. McClellan. At $75,000----
    Mr. Goodlatte. And you acknowledge in your testimony today 
and on some of those other shows that you appeared on and in 
response to Mr. Keller that the shape of this book evolved over 
the original prospectus that you prepared and submitted to some 
publishers. Is that not correct?
    Mr. McClellan. Yeah. I say that in the book. Some of the 
conclusions that I came to were different from what I would 
have embraced at the beginning, because it was a constant 
search to try to understand the truth by taking off my partisan 
lens, stepping back from the White House, and then trying to 
give something to the American people or the readers what they 
could learn from my experiences and what we can take away from 
it. I think that is an important thing to give back.
    Mr. Goodlatte. Well, I have to say that I don't believe 
that there is any enlightening information to be gained from 
your testimony here today, because as many people who know you 
have pointed out, many of the statements that you have made in 
your book directly contradict statements that you made during 
your tenure in the White House, and have even questioned how 
this book was put together because it sounds so drastically 
different from the Scott McClellan they knew. I know Ari 
Fleischer for one has made that statement.
    This puts in doubt, I think, the credibility of everything 
recounted.
    Mr. McClellan. No one is challenging--Ari Fleischer or no 
one else is challenging the themes or perspectives in the book. 
They are trying to attack me personally, as I say at the 
beginning. And I stand by everything in this book. I was a 
spokesman for the President, not for myself. This book reflects 
my personal views, and my own views, some of which I had to be 
able to step back and reflect on those experiences to 
understand exactly where things were going.
    Mr. Goodlatte. Mr. Chairman, if I just might add one thing.
    Whatever your motivations were for writing this book, I 
can't help but think that either the allegations you make were 
serious enough that you should have raised these concerns while 
you were at the White House, or they have been hyped to sell 
the book.
    Mr. McClellan. I would say, which specific allegations?
    Mr. Goodlatte. Well, there are many allegations in this 
book about things that could have been raised at the White 
House.
    Mr. McClellan. Well.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. McClellan. Yeah.
    Mr. Conyers. The Chair is pleased now to recognize the 
Chairwoman of the Commercial and Administrative Law Committee, 
the gentlelady from California, Linda Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. McClellan, according to press accounts, the plan to 
fire all 93 U.S. Attorneys originated with Karl Rove, and it 
was seen as a way to get political cover for firing the small 
number of U.S. Attorneys the White House actually wanted to get 
rid of. Many have speculated that Mr. Rove's goal in proposing 
the U.S. Attorney firing was to pressure and intimidate U.S. 
Attorney and Special Counsel Patrick Fitzgerald. When Mr. Rove 
made the suggestion to fire the U.S. Attorneys, he had already 
been before the grand jury several times in the Scooter Libby 
case.
    To your knowledge, is that account correct?
    Mr. McClellan. I did not--I am sorry, could you repeat the 
question again?
    Ms. Sanchez. Sure. When Mr. Rove made the suggestion to 
fire the U.S. Attorney, he had already been before the grand 
jury several times in the Scooter Libby matter?
    Mr. McClellan. I don't know the exact time. I did not have 
direct involvement in terms of those personnel matters in 
regard to the U.S. Attorneys. It was not something that boiled 
up while I was Press Secretary. It happened after I had already 
left.
    Ms. Sanchez. So are you aware of any conversations 
involving Karl Rove or anyone else at the White House during 
the leak investigation in which Mr. Rove or anyone else at the 
White House discussed having Mr. Fitzgerald removed as U.S. 
Attorney?
    Mr. McClellan. No. I am not familiar with those 
conversations.
    Ms. Sanchez. So to the best of your knowledge, those 
matters were not discussed during the leak investigation?
    Mr. McClellan. I just don't know. It was not something I 
was involved in.
    Ms. Sanchez. Okay. In 2003, President Bush said that anyone 
who leaked classified information in the Plame case would be 
dismissed. And in June 2004, when President Bush was asked 
whether he stood by his promise to fire whoever was found to 
have leaked Valerie Plame's name, Mr. Bush reiterated his 
promise and said ``yes.'' However, in July 2005, President Bush 
said: If someone committed a crime, they will no longer work in 
my Administration.
    Do you know what prompted President Bush to raise the bar 
in July of 2005?
    Mr. McClellan. Well, it was revelations regarding Karl 
Rove's involvement and revealing her identity to Matt Cooper as 
well as being a confirming source for Robert Novak as well. And 
I think that is why the President changed the threshold there.
    Ms. Sanchez. Who do you think in the Administration should 
have been fired if Bush had adhered to his initial promise?
    Mr. McClellan. Well, if he would have adhered to his word, 
then Karl Rove wouldn't have longer been in the Administration. 
I think he should have stood by his word.
    Ms. Sanchez. Do you believe that Mr. Libby was involved in 
getting you to vouch for him in the press?
    Mr. McClellan. Yes, I do.
    Ms. Sanchez. Can you please explain why?
    Mr. McClellan. Well, as I recount in the book as well, I 
talk about the conversation I had with Scooter Libby midweek 
where I told him that I wasn't going to go down a list of White 
House names now that a formal investigation had been launched 
and we were aware with it. He expressed his appreciation but 
didn't say much else. Then it was that Saturday, just a few 
days later when Andy Card contacted me saying that the Vice 
President and President had talked and wanted me to basically 
exonerate Scooter Libby, give the same assurances I had for him 
that I did for Karl Rove. And so I am sure that Scooter Libby 
was involved in talking to the Vice President about that. It 
also later became revealed in public documents that he had 
written out some talking points for me to use to that effect 
prior to that. Now, I never saw those talking points until it 
came out in the media.
    Ms. Sanchez. The last topic of inquiry for me. You write in 
the book: The campaign to sell the war didn't begin in earnest 
until the fall of 2002. But as I would later come to learn, 
President Bush decided to confront the Iraqi regime several 
months earlier. Cheney, Rumsfeld, Wolfowitz all saw September 
11th as an opportunity to go after Saddam Hussein, take out his 
regime, eliminate a threat, make the Middle East more secure, 
and Bush agreed.
    When exactly did President Bush decide that the U.S. would 
wage a preemptive war in Iraq.
    Mr. McClellan. Well, he is someone that tends to govern 
from the gut or instinctive decisions, and he confirmed to Bob 
Woodward that he had asked Secretary Rumsfeld to update the war 
plans for Iraq in late November. He had conversations with 
General Tommy Franks in December about Iraq. And so it was in 
that November, December, January period when he had essentially 
set the course that either we were going to go in with military 
action, or Saddam Hussein will have to come clean. There was no 
flexibility in that approach. So he had essentially set the 
policy in place at that period of time.
    The President is someone I know very well, and he tends to 
make the policy decision and then expect everybody to work on 
implementing that decision. And the market into the campaign 
was part of that effort.
    Ms. Sanchez. And why do you believe that President Bush was 
fixated specifically on invading Iraq?
    Mr. McClellan. Well, I think his driving motivation--and 
this is something I would come to learn more when I became 
Press Secretary, that the driving motivation was this 
idealistic and ambitious vision that he could transform the 
Middle East by coercively going into Iraq, and that Iraq would 
be the linchpin for transforming the rest of the Middle East 
into a democratic region.
    Ms. Sanchez. Thank you. I have no further questions. I 
yield back the balance of my time.
    Mr. Conyers. Darrell Issa of California serves with great 
distinction on three Subcommittees of the Judiciary Committee, 
plus the Intelligence Committee; but the Constitution 
Subcommittee, the Antitrust Task Force, and the Intellectual 
Property Subcommittee. And we recognize the gentleman from 
California at this time.
    Mr. Issa. Thank you, Mr. Chairman. I will try to live up to 
that introduction. It will be difficult.
    Mr. McClellan, I am not going to be easy on you, I am not 
going to be hard on you. I wasn't pleased to see this book, and 
let me go through why. By the way, it is good read. My reason 
for not being pleased may become more evident, though.
    You said you reflected for a period of time before you were 
able to properly write the book. I might propose that that 
reflection period was a period of time in which, had you 
reacted sooner, I think even you would admit that you could 
have affected the outcome of this Administration. Had you, 
let's say, published this book a year earlier, you would have 
had some effect on an Administration before its waning hours. 
Would that be fair to say?
    Mr. McClellan. I am not sure. You are talking about 
changing their policies?
    Mr. Issa. Well, let's just say that if you don't say 
anything about what you now have said in this book, you are not 
going to have an effect on the Administration.
    The fact that you are now saying it is what troubled me. 
Had you reflected until November 5th of this year and then 
published, had the book come out, would you have had 
essentially a great effect on an Administration on the eve of 
one or the other coming into office without affecting the 
actual election in process? And I don't know if you have given 
much thought to the fact that your book, quite frankly, is a 
political book launched in the most political time, disparaging 
a past Administration but in a sense that makes the war a 
focus, and many of the comments here today really focused on 
the war.
    Mr. McClellan. And I don't want to repeat the same mistakes 
that we made when you talk about war. The other aspect of this 
is that this larger message, as I said, is bigger than any 
person or party, and it is about improving governance in 
Washington. And that is why it is very important to today's 
national political conversation more than anything else. But I 
wasn't finished with the book in November 2006--or 2007. This 
was a process. I began writing it in earnest probably in July 
of 2007, and it took until mid-April really to finish it. I had 
to push a couple of deadlines back because I wanted to make 
sure that the book reflected my views and that it was right. 
And that is why I pushed the deadline back a couple times. I 
was still working through some of these issues myself.
    Mr. Issa. And I have to agree that it takes a while to 
write a book. But did you consider writing any articles that 
would have essentially--very often the George Wills of the 
world will write a series of articles that in fact are preludes 
to books, but they do in fact allow him to affect policy and 
decisions and public debate in a more real-time. Did you 
consider doing that?
    Mr. McClellan. Well, I think this is affecting policy 
debate in a positive way.
    Mr. Issa. But a year and a half ago before writing a book 
of this length, did you consider writing 400 words----
    Mr. McClellan. I think from my perspective people needed 
the full context of how I looked at these events. And that is 
why I talk about my upbringing and being raised in a political 
family, my belief in speaking up, what I was taught as a young 
kid.
    Mr. Issa. I guess I will go on to another one, because, I 
mean, this is not out here in a timely fashion--through no 
fault of yours, but not a timely fashion to affect this 
Administration. So we are clearly affecting one of two----
    Mr. McClellan. Well, I disagree. It could affect this 
Administration.
    Mr. Issa. Well, in this case my statement will stand. This 
is not going to affect this Administration in the waning days. 
Both its friends and its foes alike I think believe that. And 
by the way, I agree with you that Iraq is not going to be the 
linchpin of democracy in the Middle East; and that in fact 
anyone who believed that, believes that because they were naive 
about what it was going to take to move that area of the world 
toward a Government that serves its people better. I have spent 
a lot of time in that area. I respect that the President has 
tried to learn about it. So I don't disagree with some of your 
premises in this book.
    Let me move on, though. The next Administration is going to 
put a spokesperson in the White House to stand in that newly 
remodeled room that I understand used to be a swimming pool or 
something in the basement, and some have said it should be made 
that again. What guidance would you give to the next 
spokesperson? For example, should they not do on camera? Should 
they in fact not be part of the spin in that sense but rather 
report only in a prepared statement the official statement of 
the White House, rather than taking questions and giving 
assurances as you did? Because in your book, I think you laid 
out pretty fairly, you gave assurances based on assurances. 
This Committee could potentially have the jurisdiction to 
create a situation in which the next press secretary, or press 
spokesperson would, if they took those assurances, be called 
before this Committee. And if they swore that, we could refer 
it for criminal prosecution that the person who gave that 
official statement that was then relayed committed a crime. 
That isn't currently the case. If Karl Rove were to give you an 
assurance, or some other person, and that assurance turned out 
to be untrue, that doesn't create an action that the Attorney 
General by definition would go after just because you said it 
based on their assurance.
    Do you believe we should change the law so that when you 
speak on behalf of the President or you speak on behalf of 
somebody else who has given you assurances, that if that false 
assurance constitutes a crime that would be punishable by the 
Justice Department?
    Mr. McClellan. It is not something that I have considered 
or thought about.
    Mr. Issa. Well, Mr. Chairman, my time has expired. But 
hopefully you have considered it or begun considering whether 
or not a spokesperson on behalf of somebody, if they are 
relying on assurances as this book seems to say, either should, 
A, not be taken seriously since the assurances don't mean 
anything; or, B, those assurances should constitute something 
that we codify in law.
    I thank you for your presence here today. I thank you for a 
good book, even if I disagree about the release of time. And I 
thank the Chairman for his kind introduction.
    Mr. Conyers. Thank you for your observations.
    The gentlelady from Houston, Texas, Sheila Jackson Lee, is 
first of all a senior Member of the Committee serving on four 
Subcommittees, Intellectual Property, Immigration, Crime, and 
Antitrust, and additionally chairs the Subcommittee on Border 
Security in the Homeland Security Committee. And we recognize 
her now.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Mr. McClellan, let me indicate to you that I am very proud 
of you as an American, and I imagine that there are many 
Americans who are likewise proud of you today. It fits right 
into the constitutional scheme of three branches of Government 
and the responsibility that we have for oversight and the 
responsibility that we have for integrity as relates to the 
American people. Not only am I proud of you as an American, but 
I am certainly proud of you as a fellow Texan.
    I want to give sort of a rapid fire series of questions. 
And I know that in some instances in your capacity in the 
Public Affairs Communications Office, rightly so, you would not 
be in meetings. But obviously in discussions with the Chief of 
Staff and staff meetings you could get the flavor of the tone 
of the White House. So first my question is, have you been paid 
to come to this hearing?
    Mr. McClellan. No, I have not.
    Ms. Jackson Lee. I saw you stand and take an oath of 
office, or an oath rather. Do you take that oath seriously?
    Mr. McClellan. Very seriously.
    Ms. Jackson Lee. And are you committed to telling us the 
truth?
    Mr. McClellan. Absolutely.
    Ms. Jackson Lee. And do you distinguish and do you think we 
should distinguish payments made for a book from your 
willingness to come forward here today, take an oath, and 
commit to the American people that you are telling the truth?
    Mr. McClellan. Sure.
    Ms. Jackson Lee. With that premise, I would ask you these 
questions.
    Mr. McClellan. I would hope that it would encourage others 
to do the same from this White House, but unfortunately I don't 
think that will happen.
    Ms. Jackson Lee. I think certainly it will add to the 
oversight responsibilities that are taken seriously by this 
Committee and I think the American people.
    Do you believe that the President, in instances of 
sincerity or belief, misrepresented to the American people, 
told, made statements that were misrepresenting facts to the 
American people?
    Mr. McClellan. In terms of the build-up to the Iraq war?
    Ms. Jackson Lee. Build-up to the Iraq war. I am going to 
get into a series of other incidents that you might have had in 
your book.
    Mr. McClellan. As I say, it was less than candid and less 
than honest by the way we went about marketing that war to the 
American people. That's the way I would describe it.
    Ms. Jackson Lee. Would you describe it as telling an 
untruth?
    Mr. McClellan. It was not completely truthful. That is the 
way I would describe it.
    Ms. Jackson Lee. And do you believe, having sat in this 
room on occasion dealing with the questions of impeachment, do 
you believe that hearings that would discuss--well, hearings 
that would be in the context of impeachment proceedings would 
be warranted on the basis of untruths or that? You are not a 
lawyer?
    Mr. McClellan. Right.
    Ms. Jackson Lee. But do you believe that issues could be 
raised?
    Mr. McClellan. Congresswoman, I do not support impeachment 
based on what I know.
    Ms. Jackson Lee. Do you believe that, however, that there 
were instances of the untruth being spoken?
    Mr. McClellan. Well, I talked about the permanent campaign 
culture and how that got transferred into the war-making 
process. And so the American people didn't get the real truth 
of the situation as best we knew it. And they should have had 
that. They should have had all the facts before them, and they 
didn't. Instead, they had a partial case that was being made, 
or a case that was being made that only included part of the 
information that this Administration knew.
    Ms. Jackson Lee. And you have just made your comments as a 
personal citizen relating to your thoughts on any kind of 
constitutional proceeding?
    Mr. McClellan. Yes.
    Ms. Jackson Lee. Your personal assessment?
    Mr. McClellan. Yes.
    Ms. Jackson Lee. Let me ask you about your efforts with 
Ambassador Joseph Wilson, any lingering understanding of that. 
Prior to the leak of Valerie Plame Wilson's covert status in 
July 2003, did you participate in any discussion with the White 
House officials or officials or other Government agencies about 
Joseph Wilson and charges he had made behind the scenes about 
the misuse of Niger intelligence?
    Mr. McClellan. I was not directly involved in any of that. 
Certainly there were talking points that would have been passed 
around the Administration. But I was not involved in the 
overall strategy, if that is what you are getting at, in terms 
of trying to discredit him.
    Ms. Jackson Lee. But what did you represent to the public 
based upon discussions that might have had?
    Mr. McClellan. In that initial period, I was still Deputy 
Press Secretary. I became Press Secretary right after or during 
all that period when it was happening, the 16 words controversy 
over the State of the Union, and literally July 15th was my 
first day. And I think it was the week before that when it was 
really bubbling up.
    Ms. Jackson Lee. So what was your sense, however, being on 
the inside, of what they were trying to do to Joseph Wilson? 
Was he treated fairly by the actions of the White House 
inasmuch as he was an official of Government, he was a standing 
ambassador. It would not be thought that he would misrepresent 
what he had found.
    Mr. McClellan. I think it was wrong to start with an 
anonymous effort to discredit him, which I talk about in the 
book, which is now public knowledge. And I think it was wrong 
to go about it that way instead of addressing these issues 
openly and directly.
    Ms. Jackson Lee. And do you believe that the issue with Mr. 
Libby and his involvement with the issue of leaking was an 
intentional action inside the White House?
    Mr. McClellan. I do not know for sure. As I said, I have 
spoken to the President. I don't think he in any way was 
involved in that, to the best of my knowledge. In terms of 
whether or not it was an intentional effort by himself, Scooter 
Libby, or other persons, I do not know for sure. But there is a 
lot of suspicion that has been left.
    Ms. Jackson Lee. But you believe that the leak did generate 
out of the White House?
    Mr. McClellan. Well.
    Ms. Jackson Lee. Individuals involved in the White House?
    Mr. McClellan. There were at least three White House 
officials that revealed Valerie Plame's identity to reporters 
before it was publicly known.
    Ms. Jackson Lee. And certainly any impeachment proceedings 
not only point to the actual actor that would be impeached, in 
this instance a President, but it would also draw the 
opportunity to engage, investigate all of the occurrences that 
might be attributable to either the misuse or the abuse of 
Government. I know you are not a lawyer, but you understand 
that all this would be laid out. Do you think the American 
people need to have an airing or a clearing of some of the 
elements that you have spoken about in your book?
    Mr. McClellan. I think it is always better that they have 
the facts and that they have the truth, and then that way we 
wouldn't be in this position in the first place. We wouldn't be 
continuing to investigate this matter, asking questions. The 
suspicion wouldn't be there. The partisan squabbling that goes 
on on both sides because of issues like this would be 
diminished. I think it is a bad strategy to keep information 
from the public when they have the right to know it.
    Ms. Jackson Lee. My last point, the weapons of mass 
destruction was a key element.
    Mr. Conyers. The gentlelady's time has almost expired.
    Ms. Jackson Lee. Mr. Chairman, you are kind for your 
indulgence. I will end on this. The weapons of mass destruction 
became the singular cry for the American people to be 
frightened into conceding to the necessity of a war against 
Iraq. How much goings on, how much interaction, from your book, 
from your exposure, went on to characterize the dastardly 
condition that we are in because weapons of mass destruction 
were about to destroy America? How much misrepresentation was 
engaged in that?
    Mr. McClellan. To characterize?
    Ms. Jackson Lee. The weapons of mass destruction as a 
dastardly act.
    Mr. McClellan. There was a massive marketing effort to make 
WMD as well as the connections to al Qaeda a central part of 
that effort to sell war to the American people and package it 
as a grave and gathering danger, when the reality is that it 
was not as urgent or serious or as grave as it was portrayed.
    Ms. Jackson Lee. So untruth prevailed there?
    Mr. McClellan. Well, certainly less than truthful.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I yield back.
    Mr. Conyers. The Chair recognizes the gentleman from 
California, Dan Lungren, a former statewide enforcement officer 
for California.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. McClellan, could you just succinctly say what your 
purpose is being here?
    Mr. McClellan. I was invited by the Chairman, received a 
letter from him on the Valerie Plame episode.
    Mr. Lungren. You were not subpoenaed. Correct?
    Mr. McClellan. That is correct.
    Mr. Lungren. So what is your purpose in voluntarily coming 
here?
    Mr. McClellan. Well, I think to shed light on this whole 
episode.
    Mr. Lungren. You are not coming here as part of an 
impeachment proceeding, are you?
    Mr. McClellan. No.
    Mr. Lungren. Because I have listened to my colleagues now I 
think refer to impeachment four different times. And yet we 
have been told by the leadership on the Democratic side that 
impeachment is off the table. So my question, I guess maybe 
rhetorically, is whether what we are doing here is Kucinich-
light: We would not dare to bring up an impeachment resolution, 
but we are here asking you questions and then trying to 
extrapolate from what you say statements that then Members can 
infer lead to impeachment of the President or others. But I 
just wanted to make sure, you are not here for that purpose. 
Correct?
    Mr. McClellan. I am not here for that purpose. I don't 
think we would be here for this purpose if this White House had 
been more open.
    Mr. Lungren. No. But my question is, you didn't come here 
believing that someone should be impeached. Did you?
    Mr. McClellan. No. As I said, I do not support that.
    Mr. Lungren. And I was not here in 2002, when the 
authorization for the United States Armed Forces, the use of 
United States Armed Forces against Iraq, but I just went in to 
get a copy of it and it goes on for three and a half pages for 
the basis for the resolution, one of which was weapons of mass 
destruction.
    Did the Administration, to your knowledge, support this 
resolution in its entirety?
    Mr. McClellan. I believe so.
    Mr. Lungren. Was the Administration talking at that time 
about the other grounds for going against Saddam Hussein as 
well?
    Mr. McClellan. There were other grounds that were talked 
about, but the chief rationale was the WMD connection and 
terrorism.
    Mr. Lungren. I understand that. Well, I was going to ask 
you if you have an opinion whether Congress ever wastes time or 
wastes money or wastes space, but that sort of answer itself. 
We've got two and a half pages talking about whereas clauses, 
going back to the violation of the sovereignty of Kuwait by 
Iraq, Iraq entering into the United Nations-sponsored ceasefire 
agreement, the United States intelligence agencies, and--
despite the efforts of United States intelligence agencies, 
international weapons inspectors, et cetera. Iraq was not 
cooperating. Iraq was in direct and flagrant violation of the 
ceasefire, attempted to thwart the effort of weapons inspectors 
to identify and destroy Iraq's weapons of mass destruction. A 
1998 law passed by the Congress concluding Iraq's continuing 
weapons of mass destruction programs threatening the United 
States.
    In other words, the Administration supported all of those 
points. Is that correct?
    Mr. McClellan. It wasn't just those points that were 
emphasized. The larger point that was emphasized as the chief 
rationale was the WMD and connections potentially to al Qaeda.
    Mr. Lungren. So the Administration spokespeople, when they 
were presented with these others, rejected them, or said that 
they supported the overall judgments?
    Mr. McClellan. No. And I am saying it was where the 
emphasis was in selling this to the American people that made 
it a grave and gathering danger and an urgent danger that 
needed to be addressed now was how it was packaged together and 
what the emphasis was. And I think I said the Senate 
Intelligence Committee also reflected that in their recent 
report.
    Mr. Lungren. Hindsight is pretty good, isn't it?
    Mr. McClellan. Well, there is certainly things that I--I 
didn't have access to the intelligence at that point in time.
    Mr. Lungren. Neither did I.
    Mr. McClellan. I trusted the Administration, I trusted the 
President, and part of that trust I think was misplaced.
    Mr. Lungren. And I not being in Congress at the time not 
only put some trust in the Administration, but I was looking at 
the judgments made by both Democrats and Republicans in the 
House and the Senate, and I went through repeated judgments, at 
least as reflected in their comments by leading Democrats on 
the Senate side who were, at least as they said at the time, 
reflecting on their review of the intelligence that was then 
available. And they were saying the same thing that the 
President was saying.
    But let me ask you this about, you have used the word 
``propaganda'' a few times. On the American Heritage Dictionary 
definition of propaganda, it says: The systematic propagation 
of a doctrine or cause, or of information reflecting the views 
and interests of those advocating such a doctrine or cause.
    I guess that is what you were talking about. Right? I mean, 
you were part of the machinery that was presenting a cause, and 
you were trying to make the best case at the time to the best 
of your knowledge and ability. Right?
    Mr. McClellan. That is my what--best of my knowledge of 
what?
    Mr. Lungren. Best of your knowledge and ability at the 
time.
    Mr. McClellan. I am sorry, I missed the last part.
    Mr. Lungren. Knowledge and ability at the time.
    Mr. McClellan. Yes. I was part of that effort to some 
extent. Now, I was the Deputy Press Secretary at the time, so I 
wasn't intricately involved in that effort during that period.
    Mr. Lungren. And I have gone through your book in some 
detail. And would it be fair to say that there are--much of it 
is your reflections and your opinions based on what you were 
exposed to at the time you worked at the White House?
    Mr. McClellan. It is certainly my perspective based on the 
way the White House operates, knowing the President as well as 
being involved in these efforts, too.
    Mr. Lungren. And some of it was opinion. Correct? When you 
give us an idea of what you thought people were doing when you 
were not in the room listening to what they were saying, you 
were forming an opinion based on your knowledge but not the 
knowledge of the precise facts.
    Mr. McClellan. Well, based on my knowledge of working 
closely with the President. Based on my knowledge--there were a 
number of meetings I was involved in. There were some--this 
White House tends to be compartmentalized, so sometimes 
decisions were made in a small group of two or three people.
    Mr. Lungren. So you can understand how some of us might 
have some difference of opinion with your opinions.
    Mr. McClellan. Well, I was on the inside. I was intimately 
knowledgeable of what was going on.
    Mr. Lungren. I know. But I read through your book and you 
called Jimmy Carter a centrist, you called Ronald Reagan a 
centrist. Now, I dealt with both of them and I would describe 
them in many different ways, but I would describe neither one 
as a centrist.
    Mr. McClellan. But in many ways that they governed toward 
the center is what I was talking about in that part of the 
book.
    Mr. Lungren. Well, a centrist. The only point I am making 
is a lot of what is in your book is the----
    Mr. McClellan. Moderate or conservative in their views.
    Mr. Lungren. And you wouldn't think that we ought to 
proceed on something like impeachment on opinion. Would you?
    Mr. McClellan. Well, I have already stated my opinion on 
impeachment.
    Mr. Lungren. You are not here for that purpose?
    Mr. McClellan. No.
    Mr. Lungren. Thank you.
    Mr. McClellan. Thank you.
    Mr. Conyers. The Chair recognizes Steve Cohen, Memphis, 
Tennessee, Member of the Administrative Law Subcommittee, the 
Constitutional Law Subcommittee, and the Antitrust Task Force.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. McClellan, you said that President Bush came to 
Washington, you believe, with great potential having worked 
with Democrats as he did in Austin as Governor and in the 
beginning. What events or what people do you think led him 
astray from the potential that he had to be a uniter and not a 
divider?
    Mr. McClellan. Well, I think part of this was he came into 
this and was going to make an effort to an extent. But that he 
saw this as the way the Washington game is played, and decided 
to play it just like it is played by many other people instead 
of trying to transform it like he pledged to do when he was 
running for President. I think part of that was based on 
experience of seeing what happened to his father in his time in 
office.
    Mr. Cohen. So you think he had the potential to come in 
based on the experience he had in Texas where he worked with 
the Lieutenant Governor and all?
    Mr. McClellan. Right.
    Mr. Cohen. And the system changed him, what was in 
Washington. Is that right?
    Mr. McClellan. I think that is part of it, yes.
    Mr. Cohen. And the Vice President was put on the team 
because he had knowledge of the system and experience in 
Washington. Is that not correct?
    Mr. McClellan. And his foreign policy experience and 
experience in other ways.
    Mr. Cohen. Do you believe that Vice President Cheney was 
most responsible from deterring President Bush from being the 
great President and uniter that you think he could have been?
    Mr. McClellan. Well, I think the President has to bear 
responsibility for his presidency veering off track like it did 
more than anyone else. But there were certainly some influences 
on him that I think were negative influences in that regard, 
and I would include the Vice President in that.
    Mr. Cohen. Who was the greater influence, the Vice 
President or Karl Rove?
    Mr. McClellan. I don't think that I could make a specific 
judgment on that. But both of them had enormous influence in 
terms of the direction of this White House. And the way this 
White House operated is--of course, with the Vice President it 
was more on certain foreign policy elements and economic policy 
issues, and with Karl Rove it was the massive political 
operation that exists in this White House. And it existed in 
other White Houses as well, but when you transfer that over 
into the war-making process it becomes a problem.
    Mr. Cohen. Did you ever hear of any decisions for people 
that used BlackBerries that were RNC BlackBerries or RNC e-
mails for political purposes so as to not place those on----
    Mr. McClellan. Well, I certainly knew that people had RNC 
e-mails. I didn't have an RNC e-mail account myself, but I 
certainly knew that people used them. I believe that I probably 
would have sent e-mails to both of Karl Rove's accounts, his 
White House account and probably that account as well just to 
make sure it got to him.
    Mr. Cohen. Are you aware of any particular policy that said 
to use those to avoid Government oversight?
    Mr. McClellan. Not directly. No.
    Mr. Cohen. How about indirectly?
    Mr. McClellan. No. I wouldn't say indirectly either.
    Mr. Cohen. You say you heard talk about Iraq and the build-
up for war there. Did you ever hear any talk about Iran and a 
build-up for war with Iran in the White House?
    Mr. McClellan. Well, there is certainly a focus on Iran. 
And I sat in world leader meetings with the President where he 
would discuss Iran. It was a high foreign policy for him and 
remains a high foreign policy for him as well. And I think the 
views of people within the Administration are pretty well known 
in terms of what we ought to be doing to confront Iran.
    Mr. Cohen. The President didn't attend and hasn't attended 
funerals of soldiers who were killed in the war. Were you privy 
to any of the discussions of why it was determined that he 
would not attend those funerals as previous Presidents?
    Mr. McClellan. Including discussions from him personally 
that he didn't want to view it as picking or choosing one 
funeral over another. I did attend often with him when he would 
visit families of the fallen and wounded soldiers as well. 
Those were certainly moving moments, and I saw the President's 
care and concern for those troops and for those families as 
well.
    Mr. Cohen. Previous Presidents attended funerals, did they 
not.
    Mr. McClellan. I believe so, yes.
    Mr. Cohen. They didn't worry about choosing one over 
another. They tried to make as many as possible. So there was a 
decision to make none because you couldn't make them all; is 
that correct?
    Mr. Cohen. Well, I think part of it was, where do you draw 
the line? And if you do one, then you can't do the other. If 
you're not doing the others, does that show disrespect to 
others? But the President, as I said, often visits with the 
troops, the wounded and visits with the families as well. And 
that's the way he decided to approach it.
    Mr. Cohen. Do you remember when he gave up golf?
    Mr. McClellan. No, I don't.
    Mr. Cohen. Does he----
    Mr. McClellan. I saw his comments about that, but I don't 
remember any discussion personally about, this is his time to 
give up golf.
    Mr. Cohen. During the campaign of 2004, were you familiar 
with any discussion about swift-boating Senator Kerry?
    Mr. McClellan. No, I was not involved in that. That was 
more of a campaign side of things, if anything, and I wouldn't 
have been involved in that.
    Mr. Cohen. Did you ever overhear any conversations about 
firing of U.S. attorneys, at all?
    Mr. McClellan. That was something that boiled up after I 
was there. So I don't--I don't--it was never something that was 
high on my plate in terms of press issues that I was dealing 
with, so it's not something I ever focused on.
    Mr. Cohen. Several people edited your book. It's been 
elicited that different people edited it.
    What did they edit out of the book that we should know 
about?
    Mr. McClellan. I don't think there's anything that would be 
of interest to this Committee that was--if you say edited out 
of the book, I think I've given a pretty clear view of the big-
picture things in this book.
    That was what I was trying to focus on is, how did this 
Administration go so badly off course, and what can we learn in 
it.
    Mr. Cohen. You said in an interview by Amy Goodman on 
Democracy Now that you mentioned the number of civilian 
casualties in Iraq as one of several issues you should have 
spoken up on while you were at the White House, one of several 
you should have spoken up on.
    What were the other issues you should have spoken up on?
    Mr. McClellan. Well, I mean, in retrospect, there were a 
number of times I think I should have spoken up more. But as I 
say in the book, too, in this Administration, once the policy 
is decided, the President expects everyone to march in lockstep 
to that policy and not question it. You can question how it's 
being implemented, but once that decision's made, you're not 
encouraged to speak up about it.
    Mr. Cohen. Thank you, Mr. Chairman.
    Thank you, Mr. McClellan.
    Mr. Conyers. The Chair recognizes Tom Feeney of Florida, 
who is a Member of the Administrative Law Subcommittee and the 
Intellectual Property Subcommittee as well.
    Mr. Feeney. Thank you, Mr. Chairman. I want to thank 
Congressman King who ceded his time so I can make an early 
flight and see my son play some Little League tonight maybe, if 
it's not raining in Orlando.
    You know, Mr. McClellan, regardless of the motives or who 
edited your book, there are things that are fairly well-known 
facts. You at length, you know, cite speeches and other news 
reports; and then there is a lot of inference and speculation 
and, in some cases, some innuendo based on people you know or 
people you assume to be true, what may have been happening in 
meetings that you were in or not. And I appreciate that.
    But in terms of speculation and opinion, do you have a 
brief opinion, given your position as secretary? Regardless of 
the merits of your book or why you did it, do you think in the 
future, at a time of war or there's sensitive intelligence 
being discussed, that when a press secretary goes out shortly 
after he leaves the White House, that this book is likely to 
set the precedent for press secretaries or deputy press 
secretaries to have more or less access to what is actually 
behind the decision-making system in the White House?
    Mr. McClellan. It depends on what lessons future Presidents 
take away from this book or future Administrations. If they 
take the right lessons, that person is going to have even more 
access.
    Mr. Feeney. Well, for example, as the allies were deciding 
whether D-Day would occur in Normandy or the southern shores of 
Europe, should the press secretary have had access to those 
meetings and been available to the press, the worldwide press, 
to explain what the thinking and the rationale for the effort 
was?
    Mr. McClellan. No, I don't think a press secretary should 
ever be talking about potential war movements that are not yet 
publicly known.
    Mr. Feeney. Well, but you've speculated a lot about the 
motives of people, including the President, but especially with 
respect to the reason for war, including why Rumsfeld would 
want to go to war, why Cheney would want to go to war, why 
Wolfowitz would want to go to war.
    By the way, there's nothing new. Wolfowitz had said--you 
know, as you write in your book--to Vanity Fair that one of the 
primary reasons that they were going to go to war, and tell 
people, was because of weapons of mass destruction.
    Hindsight is 20/20. We all know what we know now, which we 
may have known at the time had Saddam Hussein complied with 
some--more than one dozen resolutions by the United Nations 
Security Council asking him to let the world know whether he 
did or did not.
    Why would every nation in the U.N. Security Council demand 
to know the status of a weapons of mass destruction program if 
we all knew or should have known it didn't exist? That's sort 
of a rhetorical question.
    But let me ask you this question because you do do a lot of 
speculation. Secretary Rumsfeld has a lot of experience, in 
Administrations, in defense. Same thing with Vice President 
Cheney. They also know that history has a lot more perfect 
vision than contemporary rationales for war.
    Can you speculate on the motives of two men that have 
served in numerous Administrations and know that they will be 
judged by history, why they would deliberately go out and lie 
about a primary justification for war, knowing full well that 
every history book would prove that their motivation for war 
was a big lie?
    I just can't fathom why people that experienced and that 
sophisticated about the way Administrations are subsequently 
judged would deliberately tell a lie, knowing that they would 
be outed. I can't find the motivation.
    Mr. McClellan. Actually, I think, in the book I say that I 
don't believe it was a deliberate attempt. It was a cultural 
problem that exists in this city where spin and manipulation 
become part of the accepted culture. And then, when you 
transfer that over from domestic policy issues to war-making 
decisions, the American people aren't getting the full truth; 
and they need to have the full truth so that they know exactly 
what we're getting into.
    Mr. Feeney. If Saddam Hussein had complied with what the 
world demanded of him, they would have had access to the truth 
about weapons of mass destruction.
    Finally, I want to--did the President know or have any 
knowledge about either Mr. Libby or Mr. Rove or anyone else 
disclosing Plame's identity to reporters?
    Mr. McClellan. I do not believe so, based on my 
conversations with the President.
    Mr. Feeney. In fact, you say, you're confident, you're 
convinced?
    Mr. McClellan. Yes. That's right.
    Mr. Feeney. I think that's important.
    I understand--look, you know that in the heat of battle and 
a run-up to a war there's a lot of emotions and there's a lot 
of lack of knowledge. I remember after 9/11 Air Force One 
didn't know what direction to take off in.
    Mr. McClellan. Right.
    Mr. Feeney. And it's the job of an Administration to try to 
tell America what they need to know. But the notion that we are 
going to share everything that we know with our enemies I find 
very disturbing.
    Mr. McClellan. I don't make that suggestion.
    Mr. Feeney. Well, anyway, thank you for your testimony.
    Mr. McClellan. Thank you.
    Mr. Conyers. Bill Delahunt of Massachusetts----
    Mr. Delahunt. Thank you, Mr. Chairman.
    Mr. Conyers [continuing]. On the Administrative Law 
Subcommittee, on the Foreign--he chairs a Subcommittee on the 
Foreign Affairs Committee. And he is on the Immigration and 
Crime Subcommittees of Judiciary.
    Mr. Delahunt. Thank you, Mr. Chairman. And I don't think in 
any way that Mr. McClellan is suggesting that we share 
information with the enemy. I think it's important, however, 
that we share information with the American people.
    Let me applaud you for this book. I think you've made an 
excellent contribution to public discourse. I think there is 
much for all of us to learn, not just simply the next 
Administration, but Congress on both sides of the aisle. This 
is not a partisan issue.
    Mr. McClellan. Right.
    Mr. Delahunt. What struck me the most in reading portions 
of your book was your statement that the Bush administration 
lacked real accountability, in large part because Bush himself 
did not embrace openness or sunshine in Government. I concur 
with that. This Committee and my own Committee have had 
constant problems dealing with this Administration.
    Currently, there is a very significant international 
agreement that's being discussed between Iraq and the United 
States that has significant implications for the American 
people and for the region. And despite their own rules, the 
Department of State, the so-called Circular 175 proceedings, 
there has been zero--well, maybe 1 on a scale of 100 
consultation with Congress.
    It was embarrassing to meet with the Foreign Minister of 
Iraq who gave us a better briefing in terms of what was under 
discussion than this Administration.
    And today in one of the local papers here, The Hill, the 
headline is, ``Cheney Gets Last Laugh, Records Stay Secret.'' 
He has managed to stonewall Waxman, stonewall Cheney. You know, 
it can be funny, it can be humorous, but these decisions are 
absolutely too important.
    So I think you made a real contribution by opening up the 
debate as to what is the quality of public discourse among the 
institutions that this democracy relies on. And at its core we 
have to have an informed citizenry.
    And I agree with you. I voted against the war, as did 133 
of my colleagues, 125 of which, by the way, were Democrats. It 
was a majority of Democrats that voted against the war simply 
because of information in the public domain. There were heroes, 
like a great field man. Nobody here would know who he is. But I 
had him to my office. He's from the Department of State.
    He said, I've read everything, Congressman Delahunt. There 
is no nuclear weapons program. They just simply isn't. It was a 
hard sell, and a tragic one at that. But I think we have to 
look forward.
    I'll tell you what I found very disturbing--and I would be 
interested in your comments--was the secret declassification 
that no one else knew about except President Bush and Vice 
President Cheney. You didn't know about it. None of us knew 
about it. Is this how we operate a democracy?
    Mr. McClellan. It's one of the problems with this White 
House, how compartmentalized it is. That is a prime example of 
how problematic it is, too. The Chief of Staff didn't know, the 
National Security Adviser didn't know, the Director of Central 
Intelligence didn't know. We were going through a formal 
declassification process shortly after that, unaware that it 
had been----
    Mr. Delahunt. This is not a democracy where you classify 
and then declassify and then reclassify and keep everything 
secret. This is not openness in Government.
    And I applaud you for this book.
    Mr. McClellan. Thank you.
    Mr. Delahunt. And it was earlier stated that your book--
others have been saying this. You have plenty of company. I can 
remember reading the memoir of Paul O'Neill, The Price of 
Loyalty. He was stunned because at the first National Security 
Council, he was in the room, he was a principal, and a 
discussion about Iraq and the instruction by the President to 
Rumsfeld and then-Joint Chief Shelton to prepare military 
operations. That was 10 days after the inauguration of the 
President, prior to 9/11.
    There was a proclivity--and we heard weapons of mass 
destruction and Mohammed Atta and, yeah, the dog wagging the 
tail about his overarching vision for the Middle East.
    And we all share that vision, but how do you impose it?
    Is my time up, Mr. Chairman?
    Mr. Conyers. There is a red light on the desk.
    Mr. Delahunt. Okay. Well could I have another 10 seconds?
    Mr. Conyers. Of course.
    Mr. Delahunt. I would--I chair, as the Chairman indicated, 
the Oversight Subcommittee on Foreign Affairs. And I would like 
to have you and Paul O'Neill come before that Committee after 
the election, so there won't be any impugning of anyone's 
integrity, and give us a view of the process or lack thereof. 
Because that was Paul O'Neill's problem as well as yours. There 
was no process; it was all gut and intuition. And now we've got 
ourselves in a mess.
    Thank you, Mr. Chairman.
    Mr. Conyers. Steve King of Iowa is the Ranking Member on 
Immigration and a valuable Member of the Constitution 
Subcommittee as well.
    Mr. King. I thank the gentleman Chairman. And I'd like to 
start out by agreeing with the gentleman from Massachusetts. He 
said, this is not a democracy. I couldn't agree more. And I 
pray it never will be, that it remains a constitutional 
republic where we actually have a chance to move this society 
forward with a representative form of Government.
    Mr. McClellan, there were impeachment hearings in this very 
room back in 1998. And although I wasn't a member of this 
Committee, I spent some days here witnessing that. I remember 
around that period of time Charlton Heston made a statement. 
And his statement was to President Clinton and he said, Mr. 
President, when you say something that's wrong and you don't 
know that it's wrong, that's called a mistake. But if you say 
something that's wrong and you know that it's wrong, that's a 
lie. He drew the distinction, and I think it's important for us 
to look at this.
    And you've made reference to the 15 words in the 
President's State of the Union address, and I believe you're 
referring to his January 28, 2003, address, which I happen to 
have the copy I had in my hand when he gave that address. I'll 
read these words to you and I think these are the ones that you 
referred to.
    The President, speaking in that State of the Union address, 
quote, ``The British Government has learned that Saddam Hussein 
recently sought significant quantities of uranium from 
Africa,'' closed quote. That's the reference, I believe.
    Do you believe that's a mistake or a lie when the President 
said it?
    Mr. McClellan. Well, I actually talk about it in the book 
at length. And I think the President thought it was credible to 
be saying that at the time that it had some substantiation. I 
don't know what every individual knew about that or was passing 
along. I think some questions remain there.
    Mr. King. Let me submit that I don't believe it was either 
a mistake or a lie. I believe that the language in here 
sustains itself as the accurate and factual truth even today.
    Mr. McClellan. Well, but our CIA disagree with that at this 
point.
    Mr. King. I have in my hand a CIA report. This is a 
debriefing report from Ambassador Joseph Wilson within 2 hours 
of the time that he arrived back home after his 2 weeks in 
Niger.
    He's been before this Committee. I didn't have this report 
in my hand on that day; I wish I had.
    It's, though, the debriefing date, 8 March 2002. Are you 
familiar with this report?
    Mr. McClellan. I may have seen it before. I'm not sure.
    Mr. King. Just for your edification and for that of the 
Committee, let me just read from this report: ``Debriefing on 
the return''--and I'm going to submit that this report directly 
contradicts Joseph C. Wilson 180 degrees, where he testified--
or in his report to the CIA, they say he referenced this former 
Prime Minister Ibrahim Mayaki. He says, ``However, Mayaki did 
relate that in June 1999 a Nigerien-Algerian businessman 
approached him and insisted that Mayaki meet with an Iraqi 
delegation to discuss `expanding commercial relations' ''--and 
that's in quotes--``between Niger and Iraq.
    ``Although the meeting took place, Mayaki let the matter 
drop due to the United Nations' sanctions against Iraq and the 
fact that Mayaki opposed doing business with Iraq. Mayaki, the 
former Prime Minister, said that he interpreted the phrase 
`expanding commercial relations' to mean that Iraq wanted to 
discuss uranium yellow cake sales.
    ``Mayaki said, he understood the rogue states would like to 
exploit Niger's resources, specifically uranium, but he 
believes the Nigerien Government's regard for the United 
States, as a close ally, would prevent sales to these states 
from taking place despite Niger's economic woes.''
    This is verbatim from the CIA report that was secret and 
now been released, redrafted. I would ask unanimous consent to 
introduce this into the record, Mr. Chairman.
    Mr. Conyers. Without objection.
    Mr. King. And I recognize that it catches you a little bit 
unaware. I trust you have not seen this report nor the language 
in it.
    Mr. McClellan. Not recently. I don't know if I've seen it 
before. I would have to look at it.
    But certainly October of 2002 for the speech the President 
gave in Cincinnati, the CIA director had said, Take this 
information out that relates to Niger. Steve Hadley recounted 
that in conversations I was participating in at the White House 
later, when the 16 words became--or that----
    Mr. King. I'm sorry. But recognizing there was a 
backpedaling on the part of the White House, I'm going to 
submit that the State of the Union address remains factual 
today.
    They did learn from the British--whether it turned out to 
be upheld in later statements or not, they did learn from the 
British. This statement of Joseph C. Wilson contradicts his 4 
years of calling President Bush a liar.
    And I would submit also that--let me pose this question. If 
you had to choose, if your life depended on it and you had to 
choose between putting your trust in Ambassador Joseph Wilson's 
veracity or that of the President of the United States, where 
would you put your----
    Mr. McClellan. I don't know that I'd jump into that 
hypothetical kind of question.
    Mr. King. Okay. I'm going to take that as an answer to that 
question. I'll pose another one then.
    What is your advice to your successor secretaries, White 
House press secretaries, as to how they should handle 
themselves and how a President might want to handle them? 
There's two parts to this question. What would you say to the 
succeeding secretaries on at what point they should step up and 
tell the world--in the middle of their job, perhaps?
    And how will the President handle this from this point? 
Does he have to then put the next press secretary into a 
cubicle and slide press releases to him under the door for fear 
that he will either write a book or come before the Judiciary 
Committee and divulge information that I believe was, at least 
from a national security--not national security, but from the 
integrity standpoint, could you not have taken some of this to 
the grave with you and done this country a favor?
    Mr. McClellan. I think that by speaking up about these 
issues that the country can learn much from what went wrong and 
what we can learn from that. And that's why I wrote this book, 
because I want to see things change here.
    Mr. King. That may well be true--thank you for your 
testimony. And I yield back, Mr. Chairman.
    Mr. Conyers. Hank Johnson is a lawyer/magistrate from 
Atlanta, Georgia, serving on the Administrative Law 
Subcommittee, the Intellectual Property Subcommittee and the 
Crime Subcommittee.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. McClellan, I appreciate your attendance today. During 
the course of President Bush's administration, there have 
been--there were 5,626 petitions for commutation, which were 
received and processed by the Office of Pardon Attorney, which 
is a part of the Justice Department. And of those, prior to Mr. 
Libby's commutation, President Bush had granted just three 
petitions for commutation. And you----
    So in other words he actually denied 4,108 of those 
petitions, and the other ones were closed without Presidential 
action, presumably by the Office of Pardon Attorney. And this 
reluctance to grant mercy on these commutation petitions is 
consistent with President Bush's conduct with respect to death 
penalty cases when he was Governor of Georgia--excuse me--
Governor of Texas; isn't that correct?
    Mr. McClellan. Yes. I think--I believe so, yes.
    Mr. Johnson. He presided--he had the distinct opportunity 
to preside over a record number of men and women--in fact, 150 
men and 2 women--a record unmatched by any Governor in modern 
American history. He presided over 150 executions as the 
Governor of Texas and commuted only one sentence. Is that 
correct?
    Mr. McClellan. That's correct.
    Mr. Johnson. And then all of a sudden----
    Mr. McClellan. I mean, I say I trust your numbers. I 
haven't looked back at it recently.
    Mr. Johnson. Then all of a sudden we've got White House 
confidant Scooter Libby, and many Americans believe that there 
was an attempt to silence Mr. Libby. Many Americans believe 
that there was a misleading of the American public in this 
Administration's march to war, there was an intentional lying 
to the American public.
    And many Americans feel that when Ambassador Joseph Wilson 
had the gall to reveal the deception to the American public, 
that he was punished by the Administration, which ordered the 
revealing of his wife's identity as a covert agent, Valerie 
Plame.
    And many people feel that the Vice President is responsible 
for Scooter Libby putting his head in the meat grinder, if you 
will; and that in return for Scooter Libby putting his head in 
the meat grinder, going through a jury trial--an extensive jury 
trial, after which he was convicted of obstructing justice, 
making false statements and two counts of perjury--and having 
been sentenced to 30 months in prison, and his motion for bond 
pending appeal having been denied by the trial judge; and then 
also denied by the court of appeals in affirming the trial 
judge's denial of the appeal bar, and Scooter Libby was headed 
to jail, to prison, imminently.
    And on the same day that Scooter Libby found out that the 
court of appeals would not reverse the judge's decision to deny 
the appeal bond, that's when President Bush issued a 
commutation, which is inconsistent with his previous history as 
Governor of Texas and President of this country. And without 
consultation of his own Justice Department, which was 
responsible for prosecuting Mr. Libby, without consultation 
with that Department or its Office of Pardon Attorney, he 
decided to issue a commutation of that prison sentence.
    And there's some who believe that he did that so that he 
could make sure that Scooter Libby would not at some point 
spill the beans on the Vice President or someone else.
    Do you believe that is the case.
    Mr. McClellan. I don't know. Again, it's one of those 
questions where I can understand why people you know view it 
that way.
    Mr. Johnson. Even in the situation where Mr. Bush--well, 
strike that. And I'll move forward.
    Do you have any reason to think that that would not be a 
reasonable scenario that I just--that I just gave?
    Mr. McClellan. Well, we haven't had any real answers to 
these questions that you're raising. There's a lot of suspicion 
there about that, and I understand why people would reasonably 
come to that conclusion.
    Mr. Johnson. It is a reasonable suspicion?
    Mr. McClellan. It sends a terrible message. It was special 
treatment, in my view, that Scooter Libby received; and I think 
that the President should not have made that decision. But 
that's his right, to do it.
    Mr. Johnson. In your opening statement, you lament the 
permanent campaign culture and constant spin that has corrupted 
Washington. Stripping away all of the spin, please tell us 
candidly and directly, what do you believe were the 
Administration's real strategic motives in misleading this 
country and the American people into a war in Iraq?
    Mr. McClellan. Well, I think the driving motivation--and I 
think I talked a little bit about this earlier--was, in the 
President's view--I can't speak to every individual, but in the 
President's view was this idea that we could transform the 
Middle East by coercively going into Iraq, that Iraq would be 
the linchpin to change Iran into a democratic state; when 
you've got Afghanistan and Iraq on each side of it, democratic 
nations on each side of Iran. And then it would go from there.
    That was the thinking. The President has spoken 
passionately about it in numerous settings where I was with 
him.
    Mr. Conyers. The gentleman's time has expired.
    Mr. Johnson. Thank you, Mr. Chairman. If I could just 
conclude that one question.
    Did you ever hear of any discussion during the run-up to 
war about the possibilities of gaining control over Iraq's vast 
oil reserves as a reason for going to war?
    Mr. McClellan. I personally did not.
    Mr. Johnson. Thank you, sir.
    Mr. McClellan. Thank you.
    Mr. Conyers. The Chair recognizes Attorney Betty Sutton of 
Ohio, who serves on the Intellectual Property Subcommittee, the 
Crime Subcommittee and the Antitrust Task Force.
    Ms. Sutton. Thank you, Mr. Chairman.
    Mr. McClellan, one of your conclusions from this experience 
is that, quote, ``War should only be waged when necessary and 
the Iraq war was not necessary,'' end quote.
    But in discussing the mood of the country in the fall of 
2002 in your book, you state that, quote, ``conditions were 
favorable for the Bush team as it launched its campaign to 
convince the--convince Americans that war with Iraq was 
inevitable and necessary.''
    We know you have come to a conclusion that the war was not 
necessary. Did the war become inevitable under this 
Administration? And if so, when?
    Mr. McClellan. I believe so, because the President left 
himself no wiggle room. I don't think it was reasonable to 
conclude that Saddam Hussein was ever going to come fully 
clean. Then the only other option the President left him was we 
were going to use military power to remove his regime from 
power. And, you know, certainly the whole laying out of the 
marketing campaign was aimed in moving it in that direction as 
well.
    Ms. Sutton. Okay. And I want to talk to you more about that 
marketing campaign and sort of this momentum that was gaining.
    In reacting to Larry Lindsey stating in The Wall Street 
Journal that the cost of the war would be somewhere between 
$100 and $200 billion, you state in your book, quote, ``None of 
the possible unpleasant consequences of war--casualties, 
economic effects, geopolitical risks, diplomatic 
repercussions--were part of the message. We were in campaign 
mode now.''
    And I guess--if you could just share with us, are you aware 
of any discussions about the costs and lost life and money that 
would be unacceptable once this campaign to war began?
    Mr. McClellan. Well, any direct knowledge of some of those 
suggestions? Well, certainly Larry Lindsey's comments are one 
in terms of looking at--trying to calculate the potential cost. 
And I think he was basing it on a 1- or 2-year time frame.
    So, I mean, there were discussions that maybe were going 
on. But certainly that was not part of the way to take--you 
know, sell the war to the American people.
    Ms. Sutton. What I'm asking about is, were there internal 
conversations that you're aware of, was it contemplated what 
would be unacceptable loss of life, or what would be 
unacceptable as the cost of war in a monetary sense? Did you 
hear those discussions? Was that part of----
    Mr. McClellan. No. At the time of the build-up, remember, I 
was Deputy Press Secretary. So, yeah, I filled in from time to 
time and participated in some meetings, but in terms of the war 
discussions, that would have been in the National Security 
Council meetings that I did not participate in at that time.
    Ms. Sutton. Did you ever become aware of any of those 
discussions along the way, throughout the course of the war?
    Mr. McClellan. Well, I mean, I've referenced Larry 
Lindsey's comments. But, you know, it was not something that 
was emphasized or stressed around the White House or that I 
ever remember coming up in terms of some of the discussions 
about how to take the Nation--or how to make the case to the 
Nation.
    Ms. Sutton. Okay. Not about making the case to the Nation, 
but did you ever hear any concern expressed about what would be 
an unacceptable loss of life as----
    Mr. McClellan. No. I can't say that I had any direct 
conversations on that.
    Ms. Sutton. Okay. And you also state that Vice President 
Cheney, quote, ``might well have viewed the removal of Saddam 
Hussein as an opportunity to give America more influence over 
Iraq's oil reserves, thereby, benefiting our national and 
economic security.''
    Now, of course, today in The Washington Post we see an 
article that's entitled Big Oil Firms Ready to Sign Agreements 
With Iraq; and in part, ``June 19--Iraq is preparing to award 
contracts to several Western energy companies to help develop 
its vast oil resources.'' The article goes on and states, 
``U.S.-based Exxon Mobil and Chevron, Royal Dutch Shell, 
France's Total and British Oil Company, BP, will secure the 
biggest contracts.''
    In light of that and this comment in your book about Vice 
President Cheney perhaps might well have viewed the removal of 
Saddam Hussein as an opportunity to give more America more 
influence over Iraq's oil reserves, could you just expand upon 
what that statement--what that statement means?
    Mr. McClellan. Well, I said it's hard to know what the Vice 
President's thinking is in terms of what his real rationale was 
for pushing forward on going into Iraq or encouraging the 
President to move forward on going into Iraq.
    But certainly if Iraq didn't have its large oil reserves, 
it wouldn't have been a national security interest and it 
wouldn't have been something on the radar screen like it was 
from the beginning of this Administration.
    Ms. Sutton. Okay.
    Was there anything specific? Or what would make you make 
that statement, though? That's sort of a general answer. Is 
there anything more specific----
    Mr. McClellan. Based my knowledge of the people at the 
White House and the workings within the White House, that would 
be how I would make that statement--and the Vice President's 
involvement, certainly, in energy issues.
    Ms. Sutton. Is the White House still in campaign mode?
    Mr. McClellan. I don't think they've ever gone out of 
campaign mode, if that's what you're asking.
    Ms. Sutton. Thank you.
    I yield back.
    Mr. Conyers. Brad Sherman of California, Intellectual 
Property Subcommittee. And I'm pleased to recognize you now.
    Mr. Sherman. Thank you, Mr. Chairman. I'd like to focus not 
on how Valerie Plame's name was exposed but rather why.
    One theory is that the goal was to discredit Ambassador 
Wilson by questioning the legitimacy of how he was selected to 
go and investigate things in Niger. Another theory is that it 
was to punish Ambassador Wilson by imperiling his wife's career 
or even her safety.
    Did anyone in the White House make the statement that 
Valerie Plame was revealed in order to teach Ambassador Wilson 
or anyone else a lesson? Or do you think that Valerie Plame's 
name was revealed just to undermine the report, the credibility 
of Ambassador Wilson?
    Mr. McClellan. My belief is that it was to undermine his 
credibility, by the people who revealed her name, as part of 
the effort to discredit Ambassador Wilson.
    Mr. Sherman. Moving to a different issue, in November, 
2004, you said that, what, Guantanamo detainees were being 
treated humanely. When did you learn that there was 
waterboarding being used at Guantanamo?
    Mr. McClellan. I think that that became public in the 
media--it may have been at some point even after I left. But, I 
mean, there was certainly discussion about it before that that 
this might be going on.
    In terms of my knowledge of it, you know, essentially I was 
using the Administration talking points that I was given by 
others from the national security staff.
    Mr. Sherman. So, so long as you were press secretary, you 
thought that they were being treated humanely and that there 
was no need to correct----
    Mr. McClellan. Well, I was getting assurances from people 
with--inside the White House, as well as probably the Pentagon, 
in conversations with them that that was the case.
    Mr. Sherman. Now, your book brings to light a few occasions 
where the information you gave the public as press secretary 
turned out to be false; and I wonder whether there are any 
occasions, not revealed in your book, where the statements you 
made to the press, to the public, were false or misleading?
    Mr. McClellan. You know, I couldn't say that without 
bringing up a specific statement. I think I included everything 
that I'm aware of in the book.
    Now, I mean, some of what I said, I thought it was sincere 
at the time. I think some of it, in retrospect, was misguided.
    Mr. Sherman. Do you have any advice for us on what to do to 
reduce the partisan nature of Washington, D.C.?
    Mr. McClellan. Well, the first thing that has to happen is 
the embrace of openness and forthrightness with the American 
people. And I think the President, more than anyone else, has 
the ability to set that kind of constructive tone, to establish 
the trust. That's first and foremost.
    But then I go into some other ideas actually in the book, 
as well, from the White House perspective: what the White House 
can do to change the partisan tone and transcend that, the 
bitter partisanship in D.C.
    Mr. Sherman. I think you have some good ideas in your book. 
I would point out, though, that Washington is not so much a 
matter of personalities as structure. We have moved over the 
last 40 years to ideological parties. And if we really wanted 
more moderation here in Congress and in Washington, we'd go to 
an open primary system, that we'd be looking at how we 
structure who gets elected and what it takes to get reelected 
rather than just counting on the next President or the 
President after that to be a more angelic person than the 
occupant of the White House.
    Mr. McClellan. There are certainly other issues that I have 
proposed or that need to be addressed; I think you get into 
some of those. I was focusing on it from the executive branch; 
and I think that the President can go a long way toward 
changing the atmosphere here in Washington, D.C.
    Mr. Sherman. I think we have a structure of electing 
elected officials that won't get you there.
    But I yield back.
    Mr. McClellan. Part of that as well.
    Mr. Conyers. The gentleman from Alabama, Artur Davis, 
himself a former assistant United States attorney who serves on 
the Immigration, Constitution and Crime Subcommittees.
    Mr. Davis. Mr. Chair, thank you. And, Ms. Baldwin, thank 
you for letting me slip ahead because I have a plane to catch. 
So thank you for that.
    Mr. McClellan, let me circle around a person whose name has 
come up a great deal today, and that's Karl Rove. You stated in 
your book and you have reiterated to the Committee several 
times that Mr. Rove encouraged you, allowed you, encouraged you 
to repeat a lie. You've said a number of things about Mr. Rove, 
and you've indicated you've known him for some period of time. 
So I want you to kind of give the Committee some advice on how 
to deal with a little situation that we have with Mr. Rove 
right now.
    The Committee has extended an invitation to Mr. Rove to do 
what you've done, to come and appear under oath, to allow 
anyone who wants to ask you questions to do so. Mr. Rove has--
not surprisingly, to you, I suspect--declined the invitation.
    Mr. Rove has come back, and he said to the Committee, Well, 
I'm willing to talk, but only if there is no oath, only if 
there are no cameras present, only if there are no notes made 
of what I have to say.
    And let me just ask you, based on what you know of Mr. 
Rove, Mr. McClellan, does it first of all surprise you that Mr. 
Rove is seeking limitations on the manner and the circumstances 
in which he would appear before this Committee?
    Mr. McClellan. No, it does not surprise me. And I think 
it's probably part of an effort to stonewall the whole process.
    Mr. Davis. I'm going to ask you two pointed questions. 
Would you trust Mr. Rove if he were not under oath to tell the 
truth?
    Mr. McClellan. Well, based on my own experience, I could 
not say that I would.
    Mr. Davis. And, in fact, if Mr. Rove were under oath, would 
you have complete confidence that he would tell the truth?
    Mr. McClellan. I would hope that he would be willing to do 
that. And as you point out, it doesn't seem that he is willing 
to do that. But based on my own experiences, I have some 
concerns about that.
    Mr. Davis. Mr. Rove did testify under oath before the grand 
jury investigating the leak a number of times, did he not?
    You have to answer orally.
    Mr. McClellan. Yes.
    I'm sorry. Yes.
    Mr. Davis. You don't believe he told the complete truth to 
the grand jury under oath when he did testify?
    Mr. McClellan. I don't know since I haven't seen his 
testimony. I do not know.
    Mr. Davis. You state--at one point, there was a very 
pointed sentence. You say that Karl was only concerned about 
protecting himself from possible legal action and preventing 
his many critics from bringing him down.
    Do you believe, based on what you know of Mr. Rove, that he 
is capable of lying to protect himself from legal jeopardy, 
sir?
    Mr. McClellan. Well, he certainly passed on false--or lied 
to me. That's the only conclusion I can draw.
    So, based on my own experience, you can appreciate where 
I'm coming from.
    Mr. Davis. Do you believe, based on what you know of this 
gentleman, your experiences with him, that he is capable of 
lying to protect himself from political embarrassment?
    Mr. McClellan. I would have to say that he did in my 
situation. So the answer is yes.
    Mr. Davis. You talk about an Administration that, in 
effect, came up with a strategy to go to war in Iraq and was 
not candid with the American people about the reasons. You 
suggest that an Administration that was so conscious of spin, 
so conscious of protecting itself politically, that it would 
shave facts and shave off elements of the truth.
    You know that this Committee has been investigating for 
about a year allegations around the firing of the U.S. 
attorneys. I know that happened after you left. I want to ask 
you again about the state of mind of this Administration.
    Is the Bush administration that you know, Mr. McClellan, 
capable of coming up with a false cover story as to why the 
U.S. attorneys were fired?
    Mr. McClellan. I would hesitate to try to characterize that 
because I have no direct knowledge of that situation.
    Mr. Davis. What about capability from what you know?
    Mr. McClellan. I don't have any direct knowledge of that I, 
so would not want to make any broad, sweeping statement on the 
Administration itself.
    Mr. Davis. If it were suggested that the Administration had 
come up with a cover story to conceal its true motives, would 
you say that you had seen the Bush administration do that kind 
of thing before?
    Mr. McClellan. Again, I don't want to try to speculate 
about that since I don't have any direct knowledge about of it.
    Mr. Davis. Have you seen them do that before?
    Mr. McClellan. Have I seen them do--I'm sorry, repeat.
    Mr. Davis. Come up with a cover story that conceals the 
true motive.
    Mr. McClellan. Well, I certainly think that in the Valerie 
Plame leak episode that it's clear today, instead of hiding 
behind the cover of an investigation or legal proceedings, that 
the Administration was more interested in simply stonewalling 
on this issue and not getting involved publicly.
    We said that we would----
    Mr. Davis. My time is running out. I have two more points.
    With respect to Mr. Rove, as you may know from reading news 
reports, there have been allegations that Mr. Rove may have 
attempted to influence the prosecution of at least one 
individual, a fellow named Siegelman who was the Governor of a 
State of Alabama.
    I suspect you have no factual knowledge of that, but let me 
ask you this: How long have you known Karl Rove?
    Mr. McClellan. I think it's going back to the early '90's--
'91-92.
    Mr. Davis. Do you have a sense of how he thinks about 
politics and how he thinks about people on the other side of 
him?
    Mr. McClellan. Well, he views the other side as the enemy, 
I think. He's the one that plays bare-knuckle politics.
    Mr. Davis. Is the Karl Rove that you've known for 15 or 16 
years, Mr. McClellan, capable of attempting to influence the 
prosecution if he had the opportunity to do that?
    Mr. McClellan. I don't have direct knowledge of that.
    Mr. Davis. That's not what I asked you.
    Mr. McClellan. I know. I would hate to try to speculate on 
that question as well.
    Mr. Davis. Let me just add if I can close out, Mr. 
Chairman.
    Mr. Delahunt, my friend from Massachusetts, gave me a 
document. There's a particular quote here that I think is 
particularly appropriate, given some comments by Mr. King, 
quote, ``To announce that there must be no criticism of the 
President or that we are to stand by the President, right or 
wrong, is not only unpatriotic and servile but is morally 
treasonable to the American people.''
    That quote comes from a noted Republican who held the 
Office of Presidency named Teddy Roosevelt. And I end with 
that, Mr. McClellan, because I suspect there's some in your 
party who will tell you that you've somehow read yourself out 
of the party by coming here today and writing this book in the 
candor in which you have.
    I would suggest that you may want to point out to them that 
there is another tradition in the Republican Party other than 
the cut-throat ideological warfare that your former 
Administration has practiced for 8 years. Teddy Roosevelt 
represented it, and I think that you represent it as well, sir.
    Mr. McClellan. Thank you.
    Mr. Davis. Thank you.
    Mr. Conyers. The gentlelady from Wisconsin, Attorney Tammy 
Baldwin who serves on the Crime Subcommittee of Judiciary.
    Ms. Baldwin. Thank you, Mr. Chairman.
    Mr. McClellan, I want to appreciate your taking the time to 
come and testify here today; and before I begin with my 
questions, I want to address one point that you made in your 
testimony this morning.
    You state that President Bush came to Washington and ended 
up playing by the game--or ended up playing the game by the 
existing rules rather than transforming them. And I could not 
disagree more.
    To the contrary, I believe that our President intentionally 
and repeatedly has broken the rules of the game. And by that, I 
mean the laws and Constitution of this country. I know you were 
referring to it in a different context.
    I believe his conduct and that of the Vice President raises 
serious questions in relation to some of the most--some of the 
principal elements of our democracy, including transparency and 
basic respect for the rule of law.
    The more we learn about why Valerie Plame Wilson's identity 
as a covert CIA agent was leaked, the more serious the breaches 
of accountability appear and the more interconnected the lies 
and violations of the American public trust grow. For many 
Americans, myself included, it is difficult to comprehend that 
the Bush administration manipulated, exaggerated intelligence 
on Iraq's nuclear capabilities to begin an unjustified war and 
then instructed Mr. Libby's perjury to protect themselves from 
further scrutiny brought about by Ambassador Wilson's 
statements.
    It's a horrifying display of political retaliation, abusive 
authority and political quid pro quo. And I think, for me, the 
only thing worse than knowing that the world will live with the 
consequences of this Administration's actions for generations 
to come is knowing how many have already suffered or died as a 
result of these transgressions.
    On that note, I would thank you for your contribution to 
our ongoing congressional investigations and would like to ask 
you a few questions as my time allows. And I'd like to actually 
start with a very, very basic question about how you were 
prepped and how you got your information for briefings with the 
press.
    Before you met with reporters, with whom did you speak, who 
gave you information, for example, on the status of the war, 
the events at Abu Ghraib? Did you speak with President Bush and 
Vice President Cheney directly to prepare or did you get that 
information from others for your press briefings? And please 
just give us a brief----
    Mr. McClellan. It depends on the situation. Sometimes 
directly with the President. Sometimes it was the National 
Security Adviser or someone--or Deputy National Security 
Adviser. So it depends on the situation.
    Sometimes it was just getting information from a policy 
person on the staff, if I didn't need to go to the President or 
someone else.
    Ms. Baldwin. Okay.
    Mr. McClellan. Or participate in meetings, even.
    Ms. Baldwin. In hindsight do you believe you were used by 
the White House to intentionally mislead the American public?
    Mr. McClellan. In terms of the Valerie Plame episode? Or 
are you talking about----
    Ms. Baldwin. Well, in any episode.
    Mr. McClellan. Well, again, I don't think that there was a 
deliberate effort necessarily, saying, Let's go out and mislead 
the American people. I think it was part of this permanent 
campaign mentality, which to some extent Washington accepts a 
little bit of the spin and manipulation that goes on. And I 
think that's a problem that needs to be addressed; and that's 
one of the reasons I wrote the book, it's one of the key themes 
in the book.
    Ms. Baldwin. You were just asked by Mr. Sherman some 
questions. But during your tenure at the White House you stated 
on more than one occasion that the President does not condone 
torture and that he never would. Yet you were at the White 
House when the accounts of abuse and torture of prisoners held 
at Abu Ghraib surfaced. And we now know you were also there 
during the time when secret legal opinions endorsing the use of 
torture on terrorism suspects were written.
    Given that we are revisiting the statements you made 
defending the Administration's reasons to go to war in Iraq, as 
well as the Administration's official role in leaking of a 
covert CIA agent's identity, would you care to comment on any 
statements you made over the years regarding this 
Administration's stance on torture or----
    Mr. McClellan. Those are not comments I would make today, 
knowing what I know today. There is information I did not know 
at that time, when I was making those comments. And I was 
relying on the assurances from others within the White House 
staff.
    Ms. Baldwin. So during your time working for this 
Administration, I ask again, do you believe that you were 
intentionally used by the White House to mislead the American 
public?
    Mr. McClellan. Well, again, I think there's certain 
individuals there that actually believe that those words are 
the case, and they sincerely believe that.
    I think most people take a very different view, though.
    Ms. Baldwin. During your time working for this 
Administration, did you ever observe any Constitution--sorry--
any conversations or actions at the White House that you 
believe were in violation of Federal law?
    Mr. McClellan. No.
    Ms. Baldwin. And I would include in that, obstruction of 
justice or perjury.
    Mr. McClellan. Right.
    No, nothing; nothing that I would have had direct knowledge 
about.
    Ms. Baldwin. Mr. Chairman, I'd yield back.
    Mr. Conyers. Debbie Wasserman Schultz of Florida.
    Oh, I'm sorry. Excuse me.
    Mr. Trent Franks is a distinguished Member of at least two 
Subcommittees on the Judiciary Committee. And I'm happy that 
he's here to join us at this time. I am happy to recognize him 
now.
    Mr. Franks. Well, thank you, Mr. Chairman. I can hardly 
wait to hear what I have to say. I appreciate it.
    Mr. McClellan, thank you for joining us today. I want to be 
very candid with you and very up front with you. There is a 
feeling in my heart that if you felt that you were doing 
something wrong at the White House, or misleading people, that 
you should have spoken up at that time.
    And then for you to do so afterwards, it seems like at some 
point--I'm having a real struggle with that. So I want to be 
open with you about that when I begin my questions here.
    The comments in your book, Ari Fleisher has had some 
commentary about them. He said there's something about this 
book that just doesn't make any sense. And these are his 
quotes. He said, ``For 2\1/2\ years Scott and I worked shoulder 
to shoulder at the White House. Scott was always my reliable 
solid deputy. Not once did Scott approach me privately or 
publicly to discuss any misgivings he had about the war in Iraq 
or the manner in which the White House made a case for the war. 
Scott himself repeatedly made the case for the war from the 
podium and even after he left the White House. And I remember 
watching him on Bill Maher's show about 1 year ago making the 
case for the war.''
    Now, I understand that people can change their minds about 
things. But if you really thought you were doing something that 
was wrong before the public, I just am so convinced that that 
would have been the same time to say it.
    In your book you made mention of a couple of things. You 
said--and I'm going to quote it--``the obfuscation, dissembling 
and lack of intellectual honesty that helped take our country 
to war in Iraq''--that's a quote.
    You also said, ``When candor could have helped minimize the 
political fallout from the unraveling of the chief rationale 
for the war, spin and evasion were also instead of what we 
employed.''
    You also said in your book, ``We engaged in spin, 
stonewalling, hedging, evasion, denial, noncommunication and 
deceit by omission.''
    You also said in a White House briefing, though--and this 
is in contrast to the book; you said, ``If you look at the 
National Intelligence Estimate, it showed the collective 
judgment of the Intelligence Community.'' And then you go back 
and look at the bipartisan Robb-Silverman Commission and they 
said, ``There is no evidence of political pressure on the 
intelligence analysts.''
    You go back and look at the Butler Report. The Butler 
Report said there was no evidence of deliberate distortion. You 
go back and look at the Senate Intelligence Committee report, 
and they said they did not find any evidence that the 
Administration officials attempted to coerce influence or 
pressure analysts to change their judgment.
    Now I've got to ask you the obvious question here. It's 
hard to ask. But were you obfuscating, dissembling, being 
dishonest, hedging, evading or being deceitful when you said 
those things?
    Mr. McClellan. I think we need to unpack everything that 
you rolled together.
    First of all, in the buildup to the war, as I say in the 
book, like a lot of Americans I was giving the Administration 
the benefit of the doubt. I thought we were rushing into it, 
but I didn't have access to the intelligence. The foreign 
policy team was highly regarded at the time so I gave the 
benefit of the doubt to the Administration, just like a lot of 
Americans.
    In terms of my role, my role was to speak for the President 
and his decisions and his policies, not for myself.
    In regards to the intelligence, I actually say in the book, 
yes, it's not a question of whether or not intelligence 
analysts were pressured. It's how that intelligence was used, 
how it was packaged, how it was overstated and sold to the 
American people.
    And that was the problem. We weren't open and candid about 
what was known in terms of caveats and qualifications, in terms 
of the way we implied certain things with the language that we 
used. So the case was greatly overstated, in my view.
    Mr. Franks. Mr. McClellan, in your original book proposal, 
you've said the following: Fairness is defined by the 
establishment media within the left-of-center boundaries that 
they set. They defend their reporting as fair because both 
sides are covered. But how fair be can it be when it is within 
the context of the liberal slant of the reporting. But then in 
the final draft of your book--this is a follow-up; a little bit 
later you say, ``I am inclined to believe that the liberal-
oriented media in the United States should be viewed as a good 
thing.''
    I'm just wondering, did the publisher have an effect on 
this epiphany?
    Mr. McClellan. No, Congressman. As a matter of fact, I 
stated earlier that if you look at that original proposal that 
was written in December of 2006, I talk about these issues and 
the bipartisanship and how that--how the President became such 
a divisive figure. And that was what I really wanted to look 
at. And initially, I think I was looking to put responsibility 
everywhere else but where it really belongs. That's a long 
process. But I put a lot of thought into it and drew those 
conclusions.
    Mr. Franks. Let me ask you one last question, Scott--Mr. 
McClellan. It's kind of a big one.
    Do you believe in your heart that President Bush is or is 
not an honorable and decent man.
    Mr. McClellan. I think he is a decent man; and I say so in 
the book, I believe.
    Mr. Franks. Thank you very much.
    Mr. Conyers. Thank you.
    The Chair is pleased to recognize Debbie Wasserman Schultz, 
who serves on both the Constitution Subcommittee and the 
Antitrust Task Force.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. McClellan, it's a pleasure to finally be able to ask 
you some questions down here at the very end of seniority on 
this Committee. And it's a privilege to serve on this 
Committee.
    You know, they said after the Watergate scandal that it 
wasn't the crime, it was the cover-up. And I can't help but 
think about that when listening to your testimony here today, 
because what happened to Valerie Plame and to Joe Wilson was 
unconscionable. But that was the cover-up. The real crime was 
the way the war was packaged and sold to a frightened nation 
after 9/11 and under false pretenses. And that's what I want to 
discuss and focus on with you here today.
    You make a reference in your book to President Bush's 
philosophy of coercive democracy; and you've talked about that 
here today, and I'll quote you, ``a belief that Iraq was ripe 
for conversion from a dictatorship into a beacon of liberty 
through the use of force and a conviction that this could be 
achieved at nominal cost.''
    And in that vein, do you think that there was a conclusion 
in the Administration on going to war with Iraq at the outset 
and a subsequent effort to fit the facts and emphasize points 
that would convince the American people, Members of Congress 
and the press that Saddam Hussein had weapons of mass 
destruction and was an imminent threat?
    Mr. McClellan. I'm sorry. Do I think that----
    Ms. Wasserman Schultz. Do you think basically that the 
Administration, from the President through Vice President and 
the upper tier of the leadership of the White House----
    Mr. McClellan. Right.
    Ms. Wasserman Schultz [continuing]. Fit the facts based on 
this coercive democracy philosophy to--what they ultimately 
wanted to be the end, which was for Congress to support the war 
and the public to support the war?
    Mr. McClellan. Well, the facts were certainly packaged in a 
way to make the most compelling case to the American people 
with the caveats and qualifications and contradictions pretty 
much left out of that.
    Ms. Wasserman Schultz. You do emphasize in your book that 
you don't think there was deliberate out-and-out deception.
    Mr. McClellan. Right. And that's not speaking to every 
individual, but as a whole; that I don't think Colin Powell and 
others that were sitting in a meeting--``Let's go out and 
deliberately mislead American people.''
    Ms. Wasserman Schultz. Where do you make the distinction? 
Who do you think was engaged in out-and-out deception? And who 
do you think maybe was more involved in distortion?
    Mr. McClellan. I can't speak to that because of my role at 
the time in the buildup to the war and I can't get in the head 
of every individual and what they were thinking and what they 
might have been promoting within the Administration or trying 
to push.
    Ms. Wasserman Schultz. Okay. Do you believe the President 
was more focused on distortion as opposed to deception? I mean, 
he was more willing to distort and emphasize facts.
    Mr. McClellan. Well, it was this whole idea that you can 
run a war-making campaign like a political campaign and use the 
same kind of spin and manipulation that you do in a political 
campaign or in a campaign to push forward on education reforms 
or Social Security reform. And I think that that is the 
mistake, a big mistake, that was made by this Administration.
    Ms. Wasserman Schultz. I want to bring out something you 
just said, you just implied a minute ago. A minute ago, you 
implied that there were some that did not intentionally deceive 
the American people. But that left the impression that perhaps 
you think there are some that did intentionally deceive the 
American people.
    Mr. McClellan. I can't rule that out, whether or not some 
were or were not. We don't have a lot of answers to some of 
those questions today.
    Ms. Wasserman Schultz. So who can you indicate that you 
believe engaged in deception?
    Mr. McClellan. Well, again, I don't have direct knowledge, 
in terms of the buildup to the war, of who might have been 
trying to do that.
    Ms. Wasserman Schultz. But it is an opinion that you hold. 
You must have an idea within that opinion who it is.
    Mr. McClellan. No, I don't have direct knowledge of that. 
What I say in the book is that we were less than open and we 
were less than candid, but it wasn't some, in my view, some 
sinister attempt where everybody was sitting around, ``let's go 
out and mislead the American people.'' Whether or not an 
individual held certain views and was engaging in that, I can't 
speak to that.
    Ms. Wasserman Schultz. Even though they might not have 
publicly or stated in meetings that they intended to mislead 
the American people, do you basically think that that is what 
it evolved into?
    Mr. McClellan. Well, it certainly had a result of being 
misleading. I think that is what I make clear.
    Ms. Wasserman Schultz. Do you think that President Bush, 
Andy Card, and Vice President Cheney or others knew that there 
was no imminent threat from Iraq to the U.S. when it comes to--
when it came to weapons of mass destruction and that they 
distorted the facts in order to convince Congress to support 
the war?
    Mr. McClellan. Do I think that any of those individuals 
did? The President, the chief of staff----
    Ms. Wasserman Schultz. The President, the Vice President 
and Andrew Card.
    Mr. McClellan. Again, I can't speak to every individual. I 
don't think, from my experience, that the President was viewing 
it that way or that Andy Card was, and, you know, but I am not 
going to try to speak to every individual.
    Ms. Wasserman Schultz. Do you think that any of those three 
individuals knew that there were not weapons--that there was no 
imminent threat from Saddam Hussein with weapons of mass 
destruction?
    Mr. McClellan. Well, the way we portrayed it was that, it 
may not be imminent, but it was a grave and gathering threat. 
And whether or not some of those individuals knew that it 
wasn't that serious or that urgent of a threat that needed 
addressing, I don't know.
    Ms. Wasserman Schultz. But you emphasize in the book, and I 
want to clarify that now, that that was not necessarily the 
primary reason for going to war, of course democracy was, but 
that they thought that was the argument that would be the most 
convincing to the American people.
    Mr. McClellan. Right. And I think that has been made in 
statements made in the public record.
    Ms. Wasserman Schultz. As my time expires, Mr. Chairman, I 
wanted to ask one other question.
    Do you think Karl Rove lied to the President of the United 
States about his involvement in the Plame scandal?
    Mr. McClellan. Based on what the President told me, I 
believe that, because the President told me that Karl had told 
him he was not involved in the revealing of her identity.
    Ms. Wasserman Schultz. Do you think Vice President Cheney 
lied at any point in this process?
    Mr. McClellan. I don't know, because I have not had 
conversations with him about it.
    Ms. Wasserman Schultz. Do you think there are any instances 
in which Karl Rove lied to the President on other policy 
matters?
    Mr. McClellan. I don't know specifically. We would have to 
try to address each specific issue, but I don't know 
specifically off the top of my head of anything I can think of.
    Ms. Wasserman Schultz. Just let me ask, if you don't mind, 
Mr. Chairman, one more thing, if you can indulge me.
    Whom in the White House are the relevant people, if anyone, 
that you believe should be brought before this Committee or any 
other congressional Committees to get more specific answers to 
these questions that might have more specific knowledge?
    Mr. McClellan. Well, certainly on the Plame episode, the 
Vice President has information that has not been shared 
publicly. You could go on down the list, from Scooter Libby to 
Karl Rove, Ari Fleischer. There are others that have probably 
not--that have not shared everything that they know about this.
    Ms. Wasserman Schultz. So you think each of those people 
should be brought in front of a congressional Committee?
    Mr. McClellan. Well, I think that it would be a benefit if 
they shared--if everything was known, and if they shared what 
they knew, and it would be a benefit if they did it under oath.
    Ms. Wasserman Schultz. Thank you.
    I yield back the balance of my time.
    Mr. Conyers. Keith Ellison of Minnesota is a former State 
Senator, a trial lawyer of more than a decade, and serves on 
the Immigration Subcommittee, and the Constitution 
Subcommittee.
    Mr. Ellison. Mr. McClellan, since you have made these 
revelations, has it damaged some of your personal friendships 
that you had in the White House?
    Mr. McClellan. Well, you find out who your true friends are 
during a time like this. So that's the way I would describe it. 
But, yes.
    Mr. Ellison. And people who you got to know pretty well now 
may not be talking to you? Is that right?
    Mr. McClellan. That is correct.
    There are also a number that are still good friends, and 
they understand me, and they understand where I am coming from. 
They know who I am.
    Mr. Ellison. But also, too, you know, I mean, I know that 
you are probably going to make some money off your book, but 
the truth is, you are a pretty capable guy and could have done 
pretty well and will, I guess, do well in your professional 
capacity aside from a book; right?
    Mr. McClellan. Well, yeah, there are certainly other 
opportunities I could have pursued separate from this book.
    Mr. Ellison. And they would be pretty lucrative?
    Mr. McClellan. I think that--yes. Yes, sir.
    Mr. Ellison. And so this is not about money. This is not 
about grudges. You are just trying help your country. Is that 
right?
    Mr. McClellan. Trying to make a difference.
    Mr. Ellison. And I think what you are doing is courageous, 
and I just want to let you know that I hope you continue to be 
open and have candor.
    What are the lessons here? I mean, the fact is, you know, 
you worked in that White House. I imagine there was a 
tremendous--when things began to occur to you that really were 
not right, you must have just felt, man, I don't know what to 
do, I am just going to shut up and do my job. Is that right?
    Mr. McClellan. Well, there is--I think there is maybe a 
little bit of that. But those last 10 months certainly became a 
disillusioning period----
    Mr. Ellison. Right.
    Mr. McClellan [continuing]. When I learned from the media, 
or just as the media was about to report it, that I had been 
knowingly misled by Karl Rove and Scooter Libby. Then when the 
NIE revelation came out. But even things in-between that, from 
the terrorist surveillance program or the warrantless 
wiretapping program to the Vice President's hunting accident, 
you can go down a list of other events.
    Mr. Ellison. We certainly could. I want to touch on a few 
of those. But I just want to say that, you know, I want to 
talk--ask you about what do you think the lessons are? How do 
we keep our Government transparent, open? How do we stop this 
sort of culture of secrecy, silence, and obfuscation that, in 
your opinion--what do we do to make sure that doesn't happen in 
the next Administration?
    Mr. McClellan. Well, I mean, certainly you are exercising 
your oversight role and trying to get to some of these answers.
    Mr. Ellison. So is part of the solution that we have got to 
have an active Congress that does its part?
    Mr. McClellan. Oversight is very important. And the other 
aspect of this is a White House that is committed to embracing 
openness and Government in the sunshine, and willing to be 
candid with the American people.
    Mr. Ellison. How do you think that we got into this frame 
of mind in the White House where, you know, they sort of like 
circle the wagons? And you used the term ``permanent 
campaign,'' but was there a tolerance for alternative and 
dissident points of view, for example on the war?
    Mr. McClellan. Well, once the policy was set, there was not 
tolerance for different views. Before the policy was set, the 
President would welcome differing views. But I think this Iraq 
policy, as I state, was set early on.
    Mr. Ellison. Like Dan Levy, for example. Do you know him?
    Mr. McClellan. No, I don't.
    Mr. Ellison. You don't know Daniel Levy?
    Mr. McClellan. I am sorry?
    Mr. Ellison. Maybe I have got the name wrong.
    Daniel Levin, sorry. Do you know him? He was an Acting 
Assistant Attorney General for a while.
    Mr. McClellan. Okay.
    Mr. Ellison. He rewrote the memo that was originally 
written by Addington and you.
    Mr. McClellan. No, I would have dealt with the Counsel's 
Office on that or maybe Addington.
    Mr. Ellison. Okay. Did you deal with Addington?
    Mr. McClellan. I dealt with the Counsel's Office primarily 
on that, when Al Gonzales was still the White House Counsel, 
and David Leach I believe was still there at that time. We did 
some press briefings on those issues.
    Mr. Ellison. Now, let me tell you, Addington and you came 
up with a memo that sort of gave license to these enhanced 
interrogation techniques that have gotten a lot of press. Did 
you--were you privy to any conversations that took place before 
the actual drafting of those memos? Do you understand what I am 
asking you?
    Mr. McClellan. In terms of the detainee policy?
    Mr. Ellison. Yes.
    Mr. McClellan. No, I was not involved in those meetings 
where that was discussed. Now, I certainly had to go out and 
defend the Administration on some of those policies, and so 
information was shared with me in terms of Counsel's Office, 
whoever else it might have been.
    Mr. Ellison. How did they tell you--how do they equip you 
to go out there and face the press given those policies that 
they----
    Mr. McClellan. Well, part of it was also getting them out 
there to talk about it. We did a detailed briefing. I don't 
remember what year it was. Maybe August of 2004 or 2003, we did 
a pretty detailed--or maybe it was later than that--detailed 
briefing with reporters, with Al Gonzales, with I think the 
counsel at the Pentagon, Haynes, Jim Haynes, and some others as 
well.
    Mr. Ellison. Now, when you got them out there to talk about 
it, after, for example, they talked about--I am talking about 
that December 2002 memo that Addington-Bybee-you memo. Did you 
ever sort of wonder about what they were going out to ask you 
to defend and ask them questions about it?
    Mr. McClellan. Well, I trusted their assurances they were 
giving me on those issues. That was one time when the press 
secretary is relying on others within the Administration to get 
his information.
    Mr. Ellison. Did you ever in your own mind ever think, wow, 
you know, they are giving me a tough thing to defend here?
    Mr. McClellan. I, certainly looking back on it, I have some 
reservations about some of the things that were said during 
that time.
    Mr. Ellison. Let's talk about the Abu Ghraib issue. I mean, 
the fact is, is that you were at the White House during that 
time.
    Mr. McClellan. Yes, sir.
    Mr. Ellison. And the world knows that people like Lynndie 
England and others were put on trial for those things. Did you 
ever get the impression that that incident started higher up?
    Mr. McClellan. Well, the sentiment within the White House 
was that this was something that was not higher up, that it was 
always to put the focus on those individuals that had been 
responsible for doing this without authority. And that was the 
attitude within the White House.
    Mr. Ellison. Was there any dialogue around that you heard 
that, you know, where people were saying, well, we know we may 
have sort of given them license to do this, get that 
intelligence however----
    Mr. McClellan. I know the President never personally 
thought that or expressed that to me in conversations. I mean, 
he certainly felt that it was the responsibility of those 
individuals going beyond their authority. And certainly----
    Mr. Ellison. What about Donald Rumsfeld?
    Mr. McClellan. I am sorry?
    Mr. Ellison. What about Donald Rumsfeld?
    Mr. McClellan. I didn't have direct conversations with him 
on that.
    Mr. Ellison. What about Jim Haynes?
    Mr. McClellan. I did not have direct conversations with Mr. 
Haynes either.
    Mr. Ellison. Did you talk with anybody about that during 
that time?
    Mr. McClellan. Well, certainly, yeah, we were talking about 
it internally, but, you know, the information I received was 
pretty much what I was saying publicly.
    Mr. Ellison. Did you--were you ever told--was there any 
discussion about, we are going to honestly try to get to the 
bottom of this to prevent it from happening?
    Mr. McClellan. I did not hear that or a focus that it may 
have been higher up. I mean, certainly it was investigated and 
looked into. I can't add anything to that record.
    Mr. Ellison. Okay. What about Guantanamo and the detainee 
policy there? Were you privy to much discussion around that?
    Mr. McClellan. Well, not direct discussions in terms of 
meetings where those policies were set in place. Again, that 
was part of some of the briefings that we did for the press 
with Al Gonzales and the others that I mentioned.
    Mr. Ellison. Yeah, but I know that before you go out there 
and look at those cameras, I am sure you get yourself ready.
    Mr. McClellan. Yes. And I talk to individuals inside the 
White House who would have knowledge of those of issues.
    Mr. Ellison. Yeah. And so what you are telling me is that 
when it comes to addressing, for example, those torture memos, 
the Addington-you torture memo, you never had any private--you 
never had any conversation before you had to go out and defend 
that policy?
    Mr. McClellan. No, I would have had conversations with 
people about what the message is here and what we can share 
with the public.
    Mr. Ellison. Right. Did you ever have any discussion about 
how that might be--about how people--are we there? Okay.
    Mr. Conyers. Very close.
    Mr. Ellison. Last question.
    You know, of course--are you familiar with a guy named 
Maher Arar.
    Mr. McClellan. Doesn't ring a bell.
    Mr. Ellison. He is a Canadian of Syrian ancestry who was 
rendered to----
    Mr. McClellan. Right.
    Mr. Ellison [continuing]. Syria.
    Mr. McClellan. Okay, now I know who you are talking about.
    Mr. Ellison. Yeah. Did the Administration ever talk about 
what you were to do to defend that policy?
    Mr. McClellan. I don't remember if I commented on that 
publicly or not. I would have to go back and look at that time 
period to see.
    Mr. Ellison. Did they ever talk about rendition at all?
    Mr. McClellan. What we talked about, I know we talked 
publicly about rendition, yes.
    Mr. Ellison. What were you told to say about that?
    Mr. McClellan. Without looking back at my notes, it is hard 
for me to talk about it other than what I said publicly is 
probably what I knew about that issue.
    Mr. Ellison. Thanks a lot, Mr. McClellan.
    Mr. McClellan. Thank you, Congressman.
    Mr. Conyers. I want to thank my colleagues, Steve King and 
Bill Delahunt and Mr. Ellison for staying with me.
    Counsel Mike Tigar and Jane Tigar, we appreciate your 
endurance.
    But I am very impressed, Mr. McClellan, with your ability 
to recall with such precision the many incidents and issues and 
names in the course of this very unusually long hearing. I 
compliment you on what you are doing, what you have done, and 
probably the further contributions that you will be able to 
make to our trying to make this a better Federal system of 
Government.
    And so without objection, the record will remain open for 5 
legislative days for the submission of other materials that you 
or the Committee might want to submit for the record.
    And with that, the Committee stands adjourned.
    Mr. McClellan. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much.
    [Whereupon, at 2:52 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Exhibits submitted by the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Material submitted by the Honorable Steve King, a Representative in 
Congress from the State of Iowa, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Post-Hearing Questions of the Honorable Lamar Smith, a Representative 
 in Congress from the State of Texas, and Ranking Member, Committee on 
 the Judiciary, to Scott McClellan, former White House Press Secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

       Response to Post-Hearing Questions from Scott McClellan, 
                   former White House Press Secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
